<html>
<title> - THE U.S. GOVERNMENT RESPONSE TO THE NUCLEAR POWER PLANT INCIDENT IN JAPAN</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





  THE U.S. GOVERNMENT RESPONSE TO THE NUCLEAR POWER PLANT INCIDENT IN 
                                 JAPAN

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 6, 2011

                               __________

                           Serial No. 112-32



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
67-399 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                      HENRY A. WAXMAN, California
  Chairman Emeritus                      Ranking Member
CLIFF STEARNS, Florida                 JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 EDWARD J. MARKEY, Massachusetts
JOHN SHIMKUS, Illinois                 EDOLPHUS TOWNS, New York
JOSEPH R. PITTS, Pennsylvania          FRANK PALLONE, Jr., New Jersey
MARY BONO MACK, California             BOBBY L. RUSH, Illinois
GREG WALDEN, Oregon                    ANNA G. ESHOO, California
LEE TERRY, Nebraska                    ELIOT L. ENGEL, New York
MIKE ROGERS, Michigan                  GENE GREEN, Texas
SUE WILKINS MYRICK, North Carolina     DIANA DeGETTE, Colorado
  Vice Chairman                        LOIS CAPPS, California
JOHN SULLIVAN, Oklahoma                MICHAEL F. DOYLE, Pennsylvania
TIM MURPHY, Pennsylvania               JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas              CHARLES A. GONZALEZ, Texas
MARSHA BLACKBURN, Tennessee            JAY INSLEE, Washington
BRIAN P. BILBRAY, California           TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire         MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                  ANTHONY D. WEINER, New York
STEVE SCALISE, Louisiana               JIM MATHESON, Utah
ROBERT E. LATTA, Ohio                  G.K. BUTTERFIELD, North Carolina
CATHY McMORRIS RODGERS, Washington     JOHN BARROW, Georgia
GREGG HARPER, Mississippi              DORIS O. MATSUI, California
LEONARD LANCE, New Jersey              DONNA M. CHRISTENSEN, Virgin Islands
BILL CASSIDY, Louisiana                
BRETT GUTHRIE, Kentucky
PETE OLSON, Texas
DAVID McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                  (ii)
              Subcommittee on Oversight and Investigations

                         CLIFF STEARNS, Florida
                                 Chairman
LEE TERRY, Nebraska                  DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma                Ranking Member
TIM MURPHY, Pennsylvania             JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas            MIKE ROSS, Arkansas
MARSHA BLACKBURN, Tennessee          ANTHONY D. WEINER, New York
SUE WILKINS MYRICK, North Carolina   EDWARD J. MARKEY, Massachusetts
BRIAN P. BILBRAY, California         GENE GREEN, Texas
PHIL GINGREY, Georgia                DONNA M. CHRISTENSEN, Virgin 
STEVE SCALISE, Louisiana                 Islands
CORY GARDNER, Colorado               JOHN D. DINGELL, Michigan
H. MORGAN GRIFFITH, Virginia         HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Cliff Stearns, a Representative in Congress from the state 
  of Florida, opening statement..................................     1
    Prepared statement...........................................     3
Hon. Michael C. Burgess, a Representative in Congress from the 
  state of Texas, prepared statement.............................     5
Hon. Diana DeGette, a Representative in Congress from the state 
  of Colorado, opening statement.................................     6
Hon. Henry A. Waxman, a Representative in Congress from the state 
  of California, opening statement...............................     8

                               Witnesses

Martin J. Virgilio, Deputy Executive Director for Reactor and 
  Preparedness Programs, U.S. Nuclear Regulatory Commission; 
  accompanied by Dr. Donald A. Cool, Senior Advisor, Radiation 
  Safety and International Liaison...............................    10
    Prepared statement...........................................    14
William Levis, President and Chief Operating Officer, PSEG Power 
  LLC............................................................    52
    Prepared statement...........................................    55
Edwin Lyman, Senior Staff Scientist, Union of Concerned 
  Scientists.....................................................    61
    Prepared statement...........................................    63
Michael Corradini, Chair, Energy and Physics Department, 
  University of Wisconsin--Madison...............................    73
    Prepared statement...........................................    75

                           Submitted Material

NRC FOIA staff memo, submitted by Mr. Waxman.....................   100
Supplemental memorandum to Democratic Committee staff, submitted 
  by Mr. Waxman..................................................   103
NRC e-mails, submitted by Mr. Markey.............................
Subcommittee exhibit binder......................................   109

 
  THE U.S. GOVERNMENT RESPONSE TO THE NUCLEAR POWER PLANT INCIDENT IN 
                                 JAPAN

                              ----------                              


                        WEDNESDAY, APRIL 6, 2011

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:05 a.m., in 
room 2322 of the Rayburn House Office Building, Hon. Cliff 
Stearns (chairman of the subcommittee) presiding.
    Members present: Representatives Stearns, Whitfield, Terry, 
Murphy, Burgess, Blackburn, Bilbray, Gingrey, Scalise, Gardner, 
Griffith, Barton, DeGette, Markey, Green, Christensen and 
Waxman (ex officio).
    Staff present: Carl Anderson, Counsel, Oversight; Michael 
Beckerman, Deputy Staff Director; Karen Christian, Counsel, 
Oversight; Stacy Cline, Counsel, Oversight; Todd Harrison, 
Chief Counsel, Oversight/Investigations; Cory Hicks, Policy 
Coordinator, Energy & Power; Dave McCarthy, Chief Counsel, 
Environment/Economy; Carly McWilliams, Legislative Clerk; 
Andrew Powaleny, Press Assistant; Krista Rosenthall, Counsel to 
Chairman Emeritus; Ruth Saunders, Detailee, ICE; Alan Slobodin, 
Deputy Chief Counsel, Oversight; Peter Spencer, Professional 
Staff Member, Oversight; Kristin Amerling, Democratic Chief 
Counsel and Oversight Staff Director; Jeff Baran, Democratic 
Senior Counsel; Alison Cassady, Democratic Senior Professional 
Staff Member; Karen Lightfoot, Democratic Communications 
Director, and Senior Policy Advisor; and Ali Neubauer, 
Democratic Investigator.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Good morning, everybody, and welcome to the 
Subcommittee on Oversight and Investigation for this hearing 
this morning, the United States Government's response to the 
nuclear power plant incident in Japan. I will open with my 5-
minute opening, and the ranking member is on her way and she 
should be here shortly.
    Today, the Subcommittee on Oversight and Investigations 
will examine the United States government's response to the 
ongoing incident at the Fukushima Daiichi nuclear power plant 
in Japan. We will look in particular at the Nuclear Regulatory 
Commission's response to the events in Japan and the safety and 
preparedness of U.S. commercial nuclear power plants.
    Congress, in large part led by this committee, the Energy 
and Commerce Committee and the Oversight Subcommittee, should 
conduct vigorous oversight of nuclear power plant safety and 
security. And we should confront any lessons from the incident 
in Japan and assess carefully whether they apply to the United 
States. Today represents the beginning of that work for this 
committee.
    As we begin the hearing today, the death toll from the 
tsunami has mounted to more than 12,000 people, with some 
15,000 people still missing. We are reminded of the heart-
wrenching devastation Japan suffered from the March 11th 
earthquake and tsunami. Our thoughts and prayers must continue 
to be with the Japanese people, who have faced great turmoil 
with courage and with grace.
    As of today, the situation at the Fukushima nuclear power 
plant remains of concern, especially for people that are still 
living in the area. While reactors crippled from the long-term 
power outage at the site appear to have been stabilized, 
cooling has not yet been completely restored and emergency 
crews continue to work around the clock. The United States 
government and industry are contributing technical expertise to 
assist the Japanese, and we are hopeful this will more rapidly 
end this crisis.
    But let us not lose sight of these facts. Radiological 
releases from the facility have been much less than feared. The 
Department of Energy's own Aerial Measuring Systems and the 
NNSA's Consequence Management Response Teams, after conducting 
hundreds of hours of surveillance and collecting thousands of 
measurements, reported this past Monday that radiological 
material has not deposited in significant quantities since 
March 19th. All measurements, except for in the immediate 
vicinity of the plant, are well below 30 millirem per hour, a 
low level, and have been declining. That is good news.
    Nevertheless, in the wake of the incident in Japan, we in 
the United States should ask some very critical questions about 
the safety and preparedness of our Nation's 104 commercial 
nuclear reactors. The testimony today will better inform our 
oversight of the government and industry response to lessons 
that are learned from Japan.
    As we examine the incident, we should not confuse what is 
happening in Japan with our own preparedness and assume they 
are one and the same. We should not make unsupported 
assumptions about risks or response measures or get ahead of 
the facts.
    There should be no question about the experience and 
responsiveness of America's nuclear power system. Each 
operating reactor in the United States undergoes 2,000 hours of 
baseline inspections, with additional inspections bringing the 
average up to 6,000 hours of inspections per plant every year. 
The industry has more than 3,500 years of total operational 
experience, which has resulted in the highest levels of safety 
for a large fleet of operators in the global industry and a 
robust safety standard and review process. This process 
involves both the United States government and an industry 
operations standard-setting body, which is often cited as the 
gold standard for industry self-regulation.
    Today we will hear testimony from two panels of witnesses. 
On the first panel, we will hear from the Nuclear Regulatory 
Commission. This independent agency has played a central role 
in the United States government's response to the Japanese 
incident, and will be an essential guide to identifying lessons 
from the Japan incident that may be applied to United States 
safeguards and ultimately our preparedness.
    We will be able to receive an update from the NRC and 
explore some of its actions regarding the Japan response. More 
broadly, I look forward to learning the NRC's perspective on 
the current safety of U.S. commercial nuclear plants, and the 
particular safeguards in place to address station blackouts, to 
respond to events that go beyond the design basis of the 
reactors, and to respond to new risks.
    Our second panel will provide perspective from the Nuclear 
Energy Institute, the American Nuclear Society and the Union of 
Concerned Scientists. This testimony will assist the 
subcommittee to place whatever we see in Japan in perspective 
of actual industry operations and practices, and the reality of 
how safety and preparedness is assured here in the United 
States.
    So let me welcome all the witnesses from the two panels.
    [The prepared statement of Mr. Stearns follows:]

                Prepared Statement of Hon. Cliff Stearns

    Today, the Subcommittee on Oversight and Investigations 
will examine the U.S. government's response to the ongoing 
incident at the Fukushima-Daiichi nuclear power plant in Japan. 
We will look in particular at the Nuclear Regulatory 
Commission's response to the events in Japan and the safety and 
preparedness of U.S. commercial nuclear power plants.
    Congress--in large part led by this Committee--should 
conduct vigorous oversight of nuclear power plant safety and 
security. And we should confront any lessons from the incident 
in Japan and assess carefully whether they apply to the United 
States. Today represents the beginning of that work for this 
Committee.
    As we begin the hearing today, the death toll from the 
tsunami has mounted to more than 12,000 people, with some 
15,000 people still missing. We are reminded of the heart-
wrenching devastation Japan suffered from the March 11 
earthquake and tsunami. Our thoughts and prayers must continue 
to be with the Japanese people, who have faced great turmoil 
with courage and grace.
    As of today, the situation at the Fukushima nuclear power 
plant remains of concern, especially for people living in the 
region. While reactors crippled from the long-term power outage 
at the Fukushima site appear to have been stabilized, cooling 
has not yet been completely restored and emergency crews 
continue to work around the clock. The United States government 
and industry are contributing technical expertise to assist the 
Japanese, and we're hopeful this will more rapidly end the 
crisis.
    But let's not lose sight of the facts: radiological 
releases from the facility have been much less than feared. The 
Department of Energy's own Aerial Measuring Systems and the 
NNSA's Consequence Management Response Teams, after conducting 
hundreds of hours of surveillance and collecting thousands of 
measurements, reported this past Monday that radiological 
material has not deposited in significant quantities since 
March 19. All measurements, except for in the immediate 
vicinity of the plant, are well below 30 millirem per hour--a 
low level--and have been declining.
    Nevertheless, in the wake of the incident in Japan, we 
should ask critical questions about the safety and preparedness 
of our nation's 104 commercial nuclear reactors. The testimony 
today will better inform our oversight of the government and 
industry response to lessons learned from Japan.
    As we examine the Fukushima incident, we should not confuse 
what is happening in Japan with our own preparedness and assume 
they are one and the same. We should not make unsupported 
assumptions about risks or response measures or get ahead of 
the facts.
    There should be no question about the experience and 
responsiveness of America's nuclear power system. Each 
operating reactor in the United States undergoes 2,000 hours of 
baseline inspections, with additional inspections bringing the 
average up to 6,000 hours of inspections per plant each year. 
The industry has more than 3,500 years of total operational 
experience, which has resulted in the highest levels of safety 
for a large fleet operator in the global industry and a robust 
safety standard and review process. This process involves both 
the U.S. government and an industry operations standard-setting 
body, which is often cited as the gold standard for industry 
self-regulation.
    We will hear testimony today from two panels of witnesses. 
On the first panel, we will hear from the Nuclear Regulatory 
Commission. This independent agency has played a central role 
in the U.S. government's response to the Fukushima incident, 
and will be an essential guide to identifying lessons from the 
Japan incident that may be applied to U.S. safeguards and 
preparedness.
    We will be able to receive an update from the NRC and 
explore some of its actions regarding the Japan response. More 
broadly, I look forward to learning NRC's perspective on the 
current safety of U.S. commercial nuclear plants, and the 
particular safeguards in place to address station black outs, 
to respond to events that go beyond the design basis of the 
reactors, and to respond to new risks.
    Our second panel will provide perspective from the Nuclear 
Energy Institute, the American Nuclear Society, and the Union 
of Concerned Scientists. This testimony will assist the 
subcommittee to place whatever we see in Japan in perspective 
of actual industry operations and practices, and the reality of 
how safety and preparedness is assured in the United States.
    Let me welcome all the witnesses. I will now yield to 
Ranking Member DeGette for the purposes of an opening 
statement.

                                #  #  #

    Mr. Stearns. At this point I will yield to the ranking 
member of the full committee, the gentleman from California, 
Mr. Waxman.
    Mr. Waxman. Mr. Chairman, we would like to have your side 
take a second 5 minutes while we are waiting for Ms. DeGette, 
and then we will take our two 5s.
    Mr. Stearns. That is very good. I recognize Mr. Murphy for 
2 minutes.
    Mr. Murphy. Thank you, Mr. Chairman, and first I join you 
in praying for the safety and for the future of the people of 
Japan.
    In this hearing there are two questions Congress needs to 
be asking on behalf of the public. One, can what happened to 
the reactors in Japan happen here, and two, how confident can 
the public be in the safety of nuclear energy, which provides 
at least 20 percent of electricity in the United States?
    Learning comes from experience, and a lot of that learning 
comes from troubling and difficult experiences, and I certainly 
want us to review aspects of nuclear design, location, and 
emergency services, but they should be based on science and 
careful review, not Congress drawing conclusions without 
science or legislating science.
    I have had the opportunity to discuss with leaders in 
nuclear energy, including executives from Westinghouse back in 
my district, about the events at the Fukushima plant and about 
U.S. nuclear plant safety. We must use the problems incurred 
from the natural disaster as opportunities to learn that the 
American nuclear industry can and must become stronger and 
smarter. The global fleet of commercial operations of nuclear 
power plants will continue to supply the world with safe and 
clean energy. Building on this record of safe operations, our 
engineers in southwestern Pennsylvania at Westinghouse, 
Curtiss-Wright and many other facilities across America, these 
companies are bringing to market the latest generation, for 
example, of safe nuclear energy plants like the AP1000 that 
have different design of passive safety features, which will 
continue to make nuclear an attractive and better option as 
countries seek to establish or expand their nuclear energy 
portfolio.
    This hearing should be an opportunity to listen and learn 
and adapt and do what we need to do to assure safety of nuclear 
power. I continue to believe that the future is bright for 
nuclear energy and it will continue providing reliable 
emissions-free electricity but this is a time that we must be 
asking the difficult questions and asking for the straight and 
honest answers from this panel, and I look forward to this 
information in this hearing, and Mr. Chairman, with that, I 
yield back.
    Mr. Stearns. The next gentleman is recognized, Dr. Burgess, 
recognized for 1 minute.
    Mr. Burgess. Thank you, Mr. Chairman.
    This hearing is as timely as it gets. The seriousness of 
the incident in Japan must not be minimized. But watching our 
neighbors deal with the containment of nuclear radiation from 
the reactors that were devastated by the earthquake and 
tsunami, we really have to be cognizant of our own safety 
record and our own assets. If changes need to be made to our 
nuclear safety plans and regulations, then so be it, but 
unfortunately, sometimes in the past we have had a history of 
moving a little too quickly and letting our regulations get 
ahead of the facts, but in no way should we minimize the 
seriousness of this incident.
    I am looking forward to the testimony of our witnesses. I 
would like to hear more about what has been going on with the 
computer modeling of what has occurred and what we might quite 
expect, and quite honestly, letting our constituents, letting 
the American people know what they should expect in the weeks 
and months ahead. It is a serious problem. It is going to be 
with us for some time. We need to have our best and brightest 
minds focused on the issue.
    Thank you, and I will yield back.
    [The prepared statement of Mr. Burgess follows:]

             Prepared Statement of Hon. Michael C. Burgess

    Thank you, Mr. Chairman.
    This hearing is as timely as it gets. As we watch our 
friends in Japan dealing with containing the nuclear radiation 
from the reactors devastated by the tsunami, we must be 
cognizant of our own industry and its safety record. If changes 
need to be made to our nuclear safety plans and regulations, so 
be it. But let's not rush to judgment, like this body has so 
many times following disasters, chomping at the bit to add more 
laws and regulations before we truly know all the facts about 
any given situation.
    This is what this subcommittee does best--investigate. This 
hearing is exemplary of that skill. We have before us today 
some of the best and brightest in the nuclear industry to give 
us the facts we need to make reasoned decisions about next 
steps in moving our country forward.
    Nuclear power has a demonstrated record of being a 
reliable, clean, and safe energy source. That basic, underlying 
fact has not changed in the last few weeks.
    I hope my colleagues on this committee listen to our 
witnesses with open ears, and don't use this hearing to 
demagogue their own partisan positions on nuclear energy. We 
are here to focus on the U.S. nuclear industry and its safety 
record. Let's leave the politics for the campaign trail.
    With that, Mr. Chairman, I yield back.

    Mr. Stearns. I thank the gentleman and recognize the 
gentlelady from Tennessee, Ms. Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman, and to our 
witnesses, thank you for being here.
    I think you are hearing a common theme. We are going to 
look at the lessons learned from Japan and then distill how 
that applies to us. In Tennessee, we have the TVA, the 
Tennessee Valley Authority, and as you all are aware, 40 
percent of our power is not generated by nuclear power 
generators. So we are interested in how those lessons will 
apply to this, the safety measures that are there for the 
people of TVA.
    We are also looking at the modular reactor project, and as 
you know, TVA is putting some energy into this. So as we look 
at Japan, let us look at our design differences and talk about 
those and what lessons we have learned from those. Also, I want 
to look at the redundant safety systems and what the 
application and what we know from Japan and what the 
application of that is to our U.S. marketplace and to our 
power-generating capacity.
    I think that also we are going to want to look at the 
safety systems, the preparedness, the response components that 
took place in Japan, and what the expectation would be for 
here.
    And with that, Mr. Chairman, I yield back.
    Mr. Stearns. I thank the gentlelady, and recognize the 
ranking member, the gentlelady from Colorado.

 OPENING STATEMENT OF HON. DIANA DEGETTE, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Ms. DeGette. Thank you very much, Mr. Chairman. Nothing 
like in the nick of time. Thank you for your comity.
    Immediately following the earthquake and the tsunami that 
set off a nuclear crisis in Japan, Representatives Waxman, 
Rush, and Markey as well as myself asked this committee to hold 
hearings into the safety and preparedness of nuclear reactors 
in the United States. So I am pleased that we have the 
opportunity to explore these issues today.
    On March 16, the committee heard testimony from the 
Chairman of the Nuclear Regulatory Commission about how grave 
the situation in Japan was. Unfortunately, here we are 3 weeks 
later and the status of the Fukushima reactors and spent fuel 
pools is still extremely serious. There continue to be 
significant releases of radioactive contaminants into the 
environment, including, in recent days, highly radioactive 
water finding its way into the Pacific Ocean. And every day we 
hear more and more reports of radiation in tap water, milk, and 
the food supply.
    It has become abundantly clear that it will be quite some 
time before we know the full scope of the catastrophe. So this 
causes us in the United States here to turn our attention to 
the dangers that our Nation faces should such a severe disaster 
strike in the area of one of our 104 nuclear reactors. As part 
of that effort, the NRC has prepared a report which uses 
modeling and simulations to analyze potential consequences of 
severe reactor accidents that, as of now, are considered highly 
unlikely to occur, unfortunately, just like the one in Japan 
was.
    While I commend the NRC for taking the initiative to 
conduct this important analysis, the draft report raises grave 
questions about our Nation's preparedness to address reactor 
accidents.
    One of the two plants the NRC analyzes is the Peach Bottom 
GE Mark I boiling-water reactor near Lancaster, Pennsylvania, 
co-owned by Exelon and PSEG. The Peach Bottom reactor has the 
same design as the Fukushima Daiichi reactors in Japan. In 
fact, in the United States, 35 boiling-water reactors are 
operating, and 23 of these reactors were constructed with the 
same Mark I containment system as Fukushima. So this is a 
common reactor design in the United States.
    For the Peach Bottom boiling-water reactor, NRC modeled two 
key scenarios involving the loss of power at the plant. Both of 
these scenarios reflect the effects of an extreme external 
event, such as an earthquake, flood, or fire. For each of the 
two scenarios, NRC looked at what would happen if the plant had 
the latest equipment and procedures introduced since the 
September 11th attacks. They also looked at what would happen 
if the plant didn't have the new equipment and procedures. 
Under the more severe loss-of-power scenario, the site loses 
all power, even the backup batteries. In their severe loss-of-
power scenario, the Peach Bottom reactor came dangerously close 
to core damage. With all its power lost, the operator was able 
to prevent core damage for 2 days; but after only 2 days, the 
modeling showed that the Peach Bottom reactor came within one 
hour of core damage.
    So in other words, when a major earthquake, flood or fire 
was assumed to knock out all of the power of a nuclear 
reactor--that is the same design as Fukushima and it stands 
less than 40 miles from the city of Baltimore, well within the 
contamination zone the United States called for in Japan--that 
plant came less than an hour away from partial nuclear 
meltdown. This is a frightening scenario for the American 
people for sure.
    And while these draft findings are already very troubling, 
they don't even take into account the issue of the spent fuel 
pools, which have been a major source of radiation and 
radioactive contamination in Japan. So as alarming as this 
report's findings are, it is sadly clear that we still have 
much to evaluate before we can know the true threats to our 
Nation from a disaster like what we have seen in Japan.
    Mr. Chairman, the American people have questions, and we in 
Congress have questions. But the first question I have to ask 
is, why do we keep finding ourselves here? It seems that we say 
over and over, don't worry, it is safe, and oh but that would 
never happen. But here we are again having these conversations.
    So Mr. Chairman, I am happy that we are having this 
hearing. I want to commend you for having this hearing, but I 
have got to say that rather than just asking questions that 
always go without an answer, we have got to start working with 
our regulators to make sure that we have an answer because what 
happened in Japan cannot happen anyplace else, and it is our 
job to help make sure that that is the case. I yield back.
    Mr. Stearns. The gentlelady yields back and we recognize 
the ranking member of the full committee, Mr. Waxman from 
California, for 5 minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman.
    I want to follow up on the issues Ms. DeGette discussed in 
her opening statement about the modeling and simulation work 
NRC has done on the Peach Bottom boiling-water reactor under 
the NRC's State-of-the-Art Reactor Consequences Analysis. 
According to the NRC staff, a draft NRC report reveals that the 
Peach Bottom plant came within one hour of core damage in a 
severe loss-of-power scenario. That result raises questions 
about whether our reactors may be as vulnerable as those in 
Fukushima.
    When a simulation purporting to determine the realistic 
consequences of a severe accident nearly results in a partial 
meltdown, Congress should be asking tough questions.
    The NRC's simulations do not consider the impact of a 
disaster event on spent fuel pools. We know from the Japan 
incident that uncovered spent fuel was a major source of 
radiation and radioactive contamination. At crucial points in 
the Japanese response effort, radiation from uncovered spent 
fuel rods has been a significant obstacle. We need additional 
analysis to account for these potential risks.
    The NRC terminated its models 2 days after the simulated 
loss of power. According to NRC staff, the assumption was that 
response efforts would only get more numerous and more 
effective after 2 days.
    There is a lot we still don't know about what went wrong at 
the Fukushima plant. But we can safely conclude 2 days is not 
enough time to know whether a reactor will melt down and 
release radioactive contamination into the environment after a 
major disaster. Stopping the analysis after just 2 days means 
that NRC may be overlooking important consequences.
    There are also questions the Committee should explore about 
whether the new equipment and procedures ordered after the 
September 11 attacks are actually in place and would be 
effective. The new equipment and procedures made an important 
difference in the NRC's modeling. With the new equipment and 
procedures, a meltdown is narrowly avoided in a complete loss-
of-power scenario. Without the new equipment and procedures, a 
simulated meltdown results, even when the backup battery power 
is still operational.
    The starting point for the NRC models is a major 
earthquake, flood or fire that leads to a loss of power at the 
reactor. In the briefing NRC provided our staff, the agency 
indicated that it assumes that critical backup equipment would 
survive the earthquake or flood or fire and be fully 
operational. That is a big assumption.
    Internal NRC e-mails described in a memo the Union of 
Concerned Scientists is releasing today also indicate that 
there were disagreements among NRC analysts as to whether the 
new equipment and procedures, known as B.5.b. measures, that 
allowed Peach Bottom to narrowly avoid a meltdown would 
actually work. According to the UCS memo, one NRC staff e-mail 
summarized concerns of NRC senior reactor analysts who work in 
NRC's regional offices as follows: ``One concern has been that 
SOARCA credits certain B.5.b. mitigating strategies...that have 
really not been reviewed to ensure that they will work to 
mitigate severe accidents. Generally, we have not even seen 
licensees credit these strategies in their own probabilistic 
risk assessments but for some reason the NRC decided we should 
during SOARCA.''
    This e-mail specifically raises concerns about the Reactor 
Core Isolation Cooling System. This is the exact system that 
NRC staff told us allowed Peach Bottom to avert core damage in 
the simulated full loss-of-power scenario. These emails and the 
results of the NRC's draft report raise questions about the 
safety and preparedness of nuclear reactors in the United 
States. The review initiated by NRC is an important first step. 
NRC should absolutely conduct a thorough review of safety at 
U.S. plants and what changes should be made in light of the 
events in Japan. But this Committee has an independent 
obligation to conduct oversight. We need to gather the facts so 
that we can determine whether the laws and regulations 
governing these reactors are adequate and effective.
    Americans are asking whether U.S. nuclear plants are safe. 
That is a reasonable question that deserves a thoughtful 
answer. I look forward to working with my colleagues to conduct 
the bipartisan oversight necessary to answer that question.
    Mr. Waxman. Mr. Chairman, I would like to ask unanimous 
consent to enter into the record the Union of Concerned 
Scientists memo and a supplemental memo prepared by the 
Democratic staff.
    Mr. Stearns. By unanimous consent, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Stearns. And I thank----
    Mr. Terry. Mr. Chairman, do we have a copy of that?
    Mr. Stearns. I think, as I understand it from our staff, we 
received a copy of it a couple minutes ago. But I ask the 
member, would he like to see it himself?
    Mr. Terry. No, I have it now.
    Mr. Stearns. OK. Without objection, so ordered then.
    We have 1 minute left over on this side of the aisle, and I 
will recognize Mr. Murphy, and Mr. Murphy, if you have any 
extra, you can give it to Mr. Bilbray.
    Mr. Murphy. I just want to take a few seconds to reiterate 
the importance of science here. I know by my friend from 
Colorado, who for some reason always likes to talk about 
Pennsylvania when it comes to Clairton Coke Works or fracking 
and now it is a nuclear power plant. Lancaster, Pennsylvania, 
is 368 feet above sea level. That is quite a few meters higher 
than Japan, and it was the tsunami that wiped out that plant. 
We are all interested in design issues but I want to make sure 
we are focusing on the facts in this to make sure we are 
dealing with this in the most honest and straightforward way.
    With that, I will yield to Mr. Bilbray.
    Mr. Bilbray. Mr. Chairman, I appreciate it.
    San Diego County, where I lived my whole life as a 
resident, has one major nuclear power plant and has many 
government-owned nuclear reactors within a mile of downtown San 
Diego, so it is important, but I am concerned that as the 
former chairman has asked the preparedness council, nobody 
points out the fact that 11,000 people died from the tsunami, 
no confirmed deaths from the nuclear reactor. That means for 
those of that live on the coast, that is more dangerous, 11,000 
times more dangerous to live by the coast than it is to live by 
a nuclear power plant if you take out basically the data that 
the 16,000 that are missing are going to be recovered.
    So I think as we keep this in perspective, I think one of 
the things we should be really concerned about is so much has 
been talked about the reactors while we ignore the fact that 
the real death and carnage occurred to those who were living 
close to the coast, which is an important issue for those of us 
that live by the coast and by nuclear facilities, so I will we 
are able to clarify that in this hearing, and I yield back.
    Mr. Stearns. I thank the gentleman, and with that, I 
believe we are prepared for Mr. Virgilio. Mr. Martin J. 
Virgilio is Deputy Executive Director for Reactor and 
Preparedness Programs, and he is accompanied by Dr. Donald A. 
Cool, a Senior Advisor for Health Physics Chairman, Nuclear 
Regulatory Commission. We want to welcome both of you, and we 
look forward to your opening statement, and you have 5 minutes. 
If you can, turn the microphone on and bring it close to you. 
It will be helpful to all of us.

TESTIMONY OF MARTIN J. VIRGILIO, DEPUTY EXECUTIVE DIRECTOR FOR 
  REACTOR AND PREPAREDNESS PROGRAMS, U.S. NUCLEAR REGULATORY 
COMMISSION; ACCOMPANIED BY DR. DONALD A. COOL, SENIOR ADVISOR, 
           RADIATION SAFETY AND INTERNATIONAL LIAISON

    Mr. Virgilio. Thank you, Mr. Chairman. Good morning. Good 
morning, Ranking Member, also to the members of the committee 
here today.
    As was noted by the chairman, my name is Marty Virgilio. I 
am the Deputy Executive Director for Operations at the NRC. 
With me today is Don Cool. Don is the Senior Radiation 
Protection Expert from the NRC. Both of us have stood numerous 
watches in our operations center since the Fukushima event has 
occurred, and we are here today to provide answers to the 
questions that you have raised in some of the opening 
statements that you have made.
    I have a brief statement I would like to read into the 
record. NRC is mindful of our primary responsibilities and they 
are to ensure the adequate protection of the public health and 
safety of the American people. We have been closely monitoring 
the activities in Japan and reviewing all currently available 
information. Review of this information combined with our 
ongoing inspection, licensing and oversight allows us to say 
with confidence that the U.S. plants continue to operate 
safely.
    On Friday, March 11th, an earthquake hit Japan, resulting 
in the shutdown of more than 10 reactors. From what we know 
now, it appears that the reactors' response to the earthquake 
went according to design. It was in fact the tsunami that 
caused or apparently caused the loss of normal and backup 
electrical power to the six units at the Fukushima Daiichi 
site.
    On that Friday morning, we went into the monitoring mode at 
the NRC. What that meant is that we activated our response 
center and individuals like Don and others were brought forward 
to that center and focused our attention on the events that 
were occurring. Our first concern was of course for the 
possible impacts of the tsunami on the U.S. plants and the 
radioactive materials that are on the West Coast of the United 
States, Hawaii, Alaska and the U.S. territories in the Pacific. 
On that same day, we began our interactions with our Japanese 
regulatory counterparts. We dispatched two experts to help the 
U.S. embassy in Japan.
    By Monday, March 14, we had dispatched a total of 11 staff 
to Japan. We continue to have staff on the ground in Japan and 
their areas of the focus are to assist the Japanese government 
as part of the U.S. response to the event and to support the 
U.S. ambassador. NRC's chairman, Dr. Gregory Jaczko, traveled 
to Tokyo on March 28th, met with his regulatory counterparts 
and sent messages of support and cooperation to the current 
situation.
    As you may be aware, NRC made a recommendation regarding 
the 50-mile evacuation of U.S. citizens, and that was based on 
conditions as we understood them at the time. We also have 
had--you have to recognize the situation at the time was that 
we had limited understanding of what was happening on the 
ground. There was a large degree of uncertainty about plant 
conditions. It was difficult for us to actually adequately 
assess our accurately assess the radiological hazards. But in 
order to determine that distance, we performed a series of 
calculations to assess possible offsite consequences looking at 
some of the worst possible cases that occurred. The source 
terms were based on hypothetical estimates of core damage, 
containment and other conditions and factors that could affect 
the release. Our calculations at the time demonstrated that the 
Environmental Protection Agency's Protective Action Guidelines 
that we would have used in the United States or would use in 
the United States could have been exceeded out to a distance of 
50 miles. Acting in accordance with our U.S. emergency planning 
framework and with the best information available to us at the 
time, we did make a recommendation that U.S. citizens evacuate 
out to 50 miles, and we thought that that was a prudent course 
of action given what we knew at the time.
    I would now like to turn to some factors that assure us of 
ongoing domestic reactor safety. We have since the beginning of 
our regulatory program in the United States used a philosophy 
of defense and depth. What we require is the highest standards 
of design, construction and oversight of the nuclear reactors. 
We rely on multiple levels of safety to protect the public and 
the environment.
    We begin with the design of every reactor to make sure that 
it takes into account the site-specific factors that include a 
detailed evaluation of natural events and phenomena like 
earthquakes, tornadoes, hurricanes, tsunamis. We have taken 
advantage of lessons learned from previous operating experience 
including probably the most significant event in the United 
States, Three Mile Island, which occurred in 1979. We implement 
a process and a philosophy of continuous improvement for all 
the U.S. commercial reactor fleet. As a result of all the 
lessons learned, we significantly revised emergency planning 
requirements and emergency operating procedures following Three 
Mile Island.
    I think the most significant changes after Three Mile 
Island included the expansion of our resident inspector program 
and the way we look at incident response today. With respect to 
the resident inspection program, we have two resident 
inspectors assigned to each site in the United States, and they 
serve as NRC's eyes and ears on the ground. With respect to 
emergency preparedness, our headquarters operational center 
that we activated following the Fukushima event and the centers 
that we have in the regions, our regional offices, are prepared 
to respond to all emergencies including any that result from 
operational events, security events or natural phenomena. We 
have multidisciplinary teams that are ready to be dispatched to 
a site if there were an event to occur.
    NRC's response to an event in the United States would in 
fact include a dispatch of a site team and integration of all 
of our emergency response capabilities. Our program is designed 
to provide quick response and adequate response should an event 
occur.
    Our culture involves continuous improvement, and I think we 
will talk a little bit more today about the State-of-the-Art 
Consequence Analysis, which is a part of that culture where we 
are constantly looking, we are constantly testing the edge to 
see what could happen in the event of an unlikely scenario. We 
have begun--in response to this event, let me say that we have 
already begun inspection activities in the United States to 
look at licensees' readiness to deal with the kinds of events 
that might have occurred in Japan. We have also issued 
information notices to our licensees to make sure they are 
aware of the facts as we know them today.
    In response to these information notices, licensees have 
voluntarily verified their capabilities to mitigate conditions 
that result from severe accidents. They are also verifying the 
capability to mitigate problems associated with flooding, both 
inside and outside the plant, and ensuring that they have the 
necessary equipment in place to mitigate any event or concern.
    Beyond the initial steps to address the experiences from 
the event, the Chairman with full support from the commission 
tasked the staff to conduct a very systematic and methodical 
lessons learned review and that activity has started. In the 
near term, we will provide, first is a 90-day review effort 
that is really focused on the short term to look at what are 
the immediate lessons learned and what, if anything, we need to 
do to ensure the continued safety of the reactors that are 
operating in the United States.
    Our investigation and assessment will include the ability 
to protect against natural disasters, response to station 
blackouts, severe accidents, spent fuel pool accidents and 
other conditions. This 90-day report will develop 
recommendations as appropriate. We will brief the commission 
and provide a copy of that report to the public.
    Beyond that taskforce review, we will identify other areas 
that we will want to study in the longer term and hope to have 
that work completed in about 6 months after the conclusion of 
that first 90-day study.
    In conclusion, I would just like to say that we continue to 
take our domestic responsibilities for licensing and oversight 
of the nuclear power plants in the United States as our top 
priority, and we believe that the plants continue to operate 
safety. In light of the events in Japan, there is a near-term 
evaluation. We will continue to gather information. We will 
perform a longer-term assessment, and based on these efforts, 
we will take any appropriate actions that are necessary to 
ensure the continued safety of the American public. Thank you.
    [The prepared statement of Mr. Virgilio follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Stearns. I thank the gentleman. Mr. Virgilio, before I 
start my questions, I think Mr. Waxman brought up a point in 
his opening statement. He made reference to some e-mails 
regarding the B.5.b. and the SOARCA issue. Have you seen those 
e-mails?
    Mr. Virgilio. Yes, sir, I have.
    Mr. Stearns. Can you explain them to us?
    Mr. Virgilio. Yes, sir, I can.
    Mr. Stearns. Just briefly, if you could.
    Mr. Virgilio. I will. To understand the context, there is 
this State-of-the-Art Reactor Consequence Assessment, SOARCA, 
that has been referred to a couple of times. That is a study 
that is done without full respect of risk involved, and let me 
explain what I mean by that. Risk is what can happen, how 
likely can it happen and what are the consequences. The SOARCA 
analysis pretty much ignores those first two questions and goes 
straight to what can happen, so we look at very unrealistic 
events as part of that analysis and we do that as part of our 
culture of continually looking at the safety of the operating 
nuclear power plants in this country to make sure that we are 
looking beyond the obvious issues. So in that context, the 
staff has looked at a number of different scenarios, and we do 
what we call parametric studies. We turn on certain systems, we 
turn off certain systems. One of the parametric studies we did 
was to turn on and turn off equipment that was required to be 
installed after 9/11. This is often referred to as B.5.b. It 
refers to a very specific section of an order that we issued 
following 9/11 to require licensees to install equipment.
    So this B.5.b. equipment is the subject of the e-mails, and 
in the e-mails, what you see is NRC in operation. You see that 
our staff is encouraged to challenge various issues as they are 
being evaluated, and what is in those e-mails is really staff 
in one of our regional offices challenging the staff and 
headquarters office to say I know you are turning this 
equipment on and off but do you realize that some of this 
equipment is not seismically qualified and so why would you 
even turn it on in this event.
    Mr. Stearns. Because it is not a valid test is what you are 
saying?
    Mr. Virgilio. Right. That is what this individual was 
raising.
    Mr. Stearns. Right. OK.
    Mr. Virgilio. Now, notwithstanding the fact that it was not 
seismically qualified, our staff had walked down that equipment 
and come to believe that while it didn't have the pedigree that 
there was a potential that equipment would in fact still 
operate. So that is what you are seeing in the e-mails is that 
healthy debate that goes on inside the NRC around any issue 
that we evaluate.
    My final comment on this is, all the equipment that is 
required to operate in a seismic event is seismically 
qualified. We only rely on qualified structure systems and 
components to respond to an earthquake.
    Mr. Stearns. OK. Thank you. Let me ask my questions. If you 
can, just answer yes or no if possible. This is the current 
status of the reactors in Japan. Has the cooling been brought 
under control, in your opinion? Yes or no.
    Mr. Virgilio. Yes.
    Mr. Stearns. Is the water covering the cores in the 
reactor?
    Mr. Virgilio. It is unknown at this time.
    Mr. Stearns. Unknown. Is water covering the spent fuel?
    Mr. Virgilio. Yes and no.
    Mr. Stearns. It has got to be either yes or no, right?
    Mr. Virgilio. What happens is they put water in, sir. The 
water evaporates and then they put more water in.
    Mr. Stearns. OK. So right now you have to say it is not 
covering?
    Mr. Virgilio. Not completely at all times.
    Mr. Stearns. OK. Can you describe how stable the--is the 
situation stable? Would we say it is stable today?
    Mr. Virgilio. I would be pressed to say that it is stable 
today.
    Mr. Stearns. So you would say no, it is not stable?
    Mr. Virgilio. Not stable.
    Mr. Stearns. It is not stable. OK. Is there a risk to 
overheating right now?
    Mr. Virgilio. Yes.
    Mr. Stearns. And how do you corroborate that fact? What 
indicates to you that there is a risk for overheating?
    Mr. Virgilio. We have a lot of conflicting information that 
tells us at times the core is covered and times the core is 
uncovered.
    Mr. Stearns. And so if it is not covered, then there could 
be the risk for overheating?
    Mr. Virgilio. Yes.
    Mr. Stearns. What should we expect to be the next step to 
restore cooling, briefly?
    Mr. Virgilio. More reliable fresh water being placed into 
the reactor core.
    Mr. Stearns. OK. Is there a plan in place and is it being 
shared with the United States? In other words, do you have 
transparency?
    Mr. Virgilio. Yes.
    Mr. Stearns. Do you believe you have transparency of 
information?
    Mr. Virgilio. With the staff that we have on the ground in 
Japan today and with the others that are there including the 
International Atomic Energy Agency, yes, we do.
    Mr. Stearns. In my eagerness to ask you some questions, I 
forgot to swear you in, so if you don't mind, bear with me 
here.
    Mr. Virgilio. Would you like me to stand?
    Mr. Stearns. Yes, if you would.
    As you know, the testimony that you are about to give is 
subject to Title 18, section 1001 of the United States Code. 
When holding an investigative hearing, this committee has the 
practice of taking testimony under oath. Do you have any 
objection to testifying under oath?
    Mr. Virgilio. No, sir.
    Mr. Stearns. The chair advises you that under the rules of 
the House and the rules of the committee, you are entitled to 
be advised by counsel. Do you desire to be advised by counsel 
during your testimony today?
    Mr. Virgilio. I have counsel here with me, and we may draw 
on the counsel.
    Mr. Stearns. All right. If you would raise your right hand?
    [Witness sworn.]
    Mr. Stearns. Thank you. I apologize for that. All the 
answers you have given are true, correct?
    Mr. Virgilio. Yes, sir.
    Mr. Stearns. In terms of radiological releases, what are 
the current specific measurements in the area surrounding the 
facilities in terms of--give us a little perspective what this 
means. I mean, would I want my family to be there or not?
    Mr. Virgilio. I am going to turn to my colleague, Don Cool. 
But first I would say that there is a larger degree of 
certainty around some of the radiation measurements, primarily 
because many of them come from NRC, U.S. assets that are there 
in Japan today.
    Mr. Stearns. So we have real clear measurements?
    Mr. Virgilio. We do have some very good measurements.
    Mr. Stearns. All right. Dr. Cool, you are the one that is 
going to give us the insight here.
    Mr. Cool. Thank you, Mr. Chairman. There are a whole series 
of measurements which we have been tracking since the time of 
the incident.
    Mr. Stearns. Just give me the essence here. Are they 
dangerous levels that would cause death?
    Mr. Cool. They are not dangerous levels that would cause 
death over a short period of time, even in the immediate----
    Mr. Stearns. And what do you mean by short period of time?
    Mr. Cool. That is in hours or days.
    Mr. Stearns. In hours or days?
    Mr. Cool. Weeks or months.
    Mr. Stearns. OK. Has the facility been emitting significant 
doses of radiation into the air in recent days, like yesterday?
    Mr. Cool. We do not believe so.
    Mr. Stearns. So in your opinion, it is under control and it 
is safe in the areas?
    Mr. Cool. The current conditions are stable. They should 
remain safe.
    Mr. Stearns. Is the situation then getting better?
    Mr. Cool. The radiological conditions are getting better. 
Dose rates are decreasing.
    Mr. Stearns. So you can say conclusively that the current 
measured levels do not pose any immediate risk to the public in 
Japan or the United States? At least in Japan, we will start.
    Mr. Cool. With the current circumstances at the facility, 
yes, sir.
    Mr. Stearns. And obviously not in the United States?
    Mr. Cool. Yes, sir.
    Mr. Stearns. With that, my time is expired and the ranking 
member is recognized.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    Mr. Virgilio, you were talking about this SOARCA analysis, 
and as I understand it, that analysis is something that the NRC 
does for modeling and simulations of sort of the worst-case 
scenario. Is that right?
    Mr. Virgilio. That is correct.
    Ms. DeGette. And something like that had not been done 
since the 1980s and that was one of the reasons why given the 
new advancements after September 11th and everything else the 
NRC decided to go through one of these SOARCA assessments. Is 
that correct?
    Mr. Virgilio. It was a combination of new plant design 
features and new tools for doing these analyses.
    Ms. DeGette. OK. And so your staff recently briefed my 
staff about the modeling, and I know there is a draft report 
but it is not out yet so I wanted to ask you some questions 
about that report. As I mentioned in my opening statement, the 
SOARCA project analyzed two plants including the Peach Bottom 
plant near Lancaster, Pennsylvania, and I am certainly not 
meaning to disparage the State of Pennsylvania, and I wish my 
colleague was here, but the SOARCA model is talking about if 
power goes out at one of these facilities, correct?
    Mr. Virgilio. Yes, that is one of the----
    Ms. DeGette. That is one of the scenarios?
    Mr. Virgilio. Yes.
    Ms. DeGette. So it is not really how the power goes out, it 
is if the power goes out, right?
    Mr. Virgilio. Right.
    Ms. DeGette. I mean, anything could cause the power to go 
out. Certainly, in Lancaster, Pennsylvania, we are not going to 
have a tsunami like we did in Japan, but what you are looking 
at irrespective of the cause of the power outage, one of the 
things you are looking at is, is the power going to go out, 
right?
    Mr. Virgilio. Irrespective of the probability and cause.
    Ms. DeGette. Probability and cause, what would happen. And 
now, am I correct when I say that the Peach Bottom reactors are 
of the same design as the Fukushima reactors in Japan?
    Mr. Virgilio. The containment and reactor designs are very 
similar.
    Ms. DeGette. Very similar. OK. So for the Peach Bottom 
reactors, NRC modeled three scenarios. Under one scenario, the 
plant is assumed to lose offsite power and its backup diesel 
generators but the battery backups operate safe systems for 
about 4 hours until the battery is exhausted, right?
    Mr. Virgilio. You are getting into a level of detail about 
the modeling that I would have to check with the staff on.
    Ms. DeGette. OK. If you don't mind checking with the staff 
on that and supplementing your answer, that would be great.
    Mr. Virgilio. Sure.
    Ms. DeGette. Thank you. Now, under another scenario--and 
your staff told our staff about this during the briefing--the 
site loses all power, even the battery power backups, and so 
all safety systems are inoperable. Now, are these so-called 
station blackout scenarios similar to what occurred in Japan 
where the power goes out and then the backup power goes out?
    Mr. Virgilio. Yes.
    Ms. DeGette. What happened at the Daiichi plant is that it 
lost electricity and backup diesel generators and then the 
batteries worked until they were depleted, right?
    Mr. Virgilio. That is our understanding today.
    Ms. DeGette. OK. So your staff told us that for each of the 
scenarios that I just talked about a minute ago, the NRC 
modeled two sub-scenarios, one that assumed the presence and 
use of new equipment and procedures since September 11 and one 
that did not. So what types of equipment and procedures are we 
talking about here? Additional pumps and generators?
    Mr. Virgilio. Yes, additional generators and additional 
pumps and other equipment.
    Ms. DeGette. OK. So the NRC results are sobering because 
without the post-9/11 equipment and procedures, both of the 
simulated station blackout scenarios led to core damage at the 
Peach Bottom plant within 2 days, and so here is my question to 
you. Does this mean that America's nuclear plants were not 
prepared to respond to station blackouts before September 11?
    Mr. Virgilio. No, not at all.
    Ms. DeGette. OK. That is a relief.
    Mr. Virgilio. As a matter of fact, we issued a station 
blackout rule that required licensees to establish the 
capability to cope with the complete loss of external power and 
emergency onsite power.
    Ms. DeGette. OK. So now, since September 11, have all of 
our nuclear plants been equipped with these same precautions 
that you looked at in the Pennsylvania plant?
    Mr. Virgilio. Yes. It was part of an order which eventually 
became part of a regulatory requirement.
    Ms. DeGette. OK. I just have one last question. Now, in 
this simulation, the Peach Bottom reactors performed better 
with the new equipment and procedures. In the less severe 
station blackout scenario where the batteries operated for 4 
hours, they averted core damage. In the more severe scenario in 
which all power was lost, however, they only avoided core 
damage by 1 hour. So I am wondering if this SOARCA project, the 
1 hour under the more severe scenario, if that gives you any 
cause for concern.
    Mr. Virgilio. Well, once again, what we do in the SOARCA 
analysis is, we ignore all probabilities. You go straight to 
the event. So you have to first consider how likely is this to 
occur. As part of our culture, we constantly push the envelope.
    Ms. DeGette. So your answer is no, it doesn't give you 
concern?
    Mr. Virgilio. No, it doesn't give me concern.
    Ms. DeGette. OK. Thank you.
    Mr. Stearns. I thank the gentlelady. The gentleman from 
Nebraska is recognized for 5 minutes.
    Mr. Terry. Thank you, Mr. Chairman.
    This is an interesting discussion and one I wasn't totally 
prepared for here in the sense of SOARCA and these e-mails, but 
it is certainly interesting. I guess the assumption here is 
that you are not following through on suggestions made by your 
own staff. Would you reply to that assumption?
    Mr. Virgilio. That is far from the truth. We encourage our 
staff to raise issues as we do these kinds of analyses, and as 
a matter of fact, on that very issue the question is still 
open. I spoke to the office director, deputy office director 
and the division director responsible for this area once we 
became aware of those e-mails, and this is still an open issue 
as to whether the equipment in fact would operate in a seismic 
event or not, and again, this was a parametric study. We turned 
it on, we turned it off to see what----
    Mr. Terry. So you actually followed through on some of the 
feedback that you received that you actually invited?
    Mr. Virgilio. We always do. We invite the feedback and we 
follow up on it.
    Mr. Terry. Very good. The other assumption that is being 
used or at least I am hearing in statements and questions here, 
the syllogism would somewhat like the GE plant in Fukushima is 
in crisis, core melting and we have the same GE plants in the 
United States so therefore we are at risk for the same thing. 
Is that a fair syllogism and assumption?
    Mr. Virgilio. I don't think so at all.
    Mr. Terry. Why?
    Mr. Virgilio. I don't think the events that occurred--given 
the seismology and geology of that area, you have to realize 
that we are dealing with a subduction zone, which is a very 
powerful earthquake, leads to very large tsunamis. We don't 
have that siting issue here. Furthermore, I think that there 
are differences in the designs of those reactors. While they 
are basically the same reactor, we have done quite a bit to 
modify that design over the life of the facilities as a result 
of operating experience. We don't know for sure but there is 
some evidence that we are seeing that the Japanese designs did 
not keep pace, they did not make the same modifications that we 
made to install hardened vents, to install the B.5.b. equipment 
that we installed post 9/11.
    Mr. Terry. Let me ask this question. You mentioned about 
your NRC site team. You have got regulators on staff. There is 
a nuclear power plant in Fort Calhoun that is just a couple 
miles outside of my district that I have visited probably four 
or five times before 9/11, after 9/11. I have seen the changes 
that occurred there. I have seen your regulators there. I am 
just curious if Japan has something similar to onsite nuclear 
regulators and site teams when there is an issue. Are we more 
prepared for a problem than they are?
    Mr. Virgilio. I believe we are, based on what we are seeing 
today in terms of the response to the event.
    Mr. Terry. And what assurances could you give the American 
public that if there is an event at a nuclear power plant in 
the United States that your site teams can act quickly and 
efficiently to avert any risk to human health?
    Mr. Virgilio. Well, I would go back to first say that the 
design features that I would start with, with respect to our 
ability to cope with those kinds of events and then I would go 
to our regulatory structure that includes dispensing or 
dispatching a team to the site along with standing up our 
operations center in Washington, DC until the site team is 
established, and that team is there to oversee the operations 
and make recommendations to the state that has the final say in 
protective actions.
    Mr. Terry. Well, I appreciate that. I think that is 
probably one of the things that we need to--one result from 
this hearing is to be able to assure the American public that 
we are on top of this to avoid any crisis. I think there will 
be some people that will try and take advantage of this who are 
just simply anti-nuclear whether it is nuclear power or nuclear 
weapons, and most people that I have talked to in Nebraska are 
fearful that it is going to be used to shut down nuclear power 
across the United States, and I think that may be a real agenda 
of some, and those are also ironically the same people that are 
trying to shut down coal, and at least we realize if you shut 
down 75, 80 percent of our generation of electricity, that may 
actually hurt our country as well. Yield back.
    Mr. Stearns. The gentleman from California, Mr. Waxman, is 
recognized for 5 minutes.
    Mr. Waxman. Mr. Virgilio, I appreciate the work the NRC is 
doing to make sure our nuclear power in this country is as safe 
as possible. I guess the questions that Ms. DeGette and I are 
raising is whether the simulations of the worst case, we can be 
assured--of course, you can never be completely assured. You 
are working on certain modeling, certain assumptions. The NRC 
did a modeling called a State-of-the Art Reactor Consequence 
Analysis, or the SOARCA analysis, and they stimulated crisis 
scenarios at this Peach Bottom nuclear facility in 
Pennsylvania. I assume that is because it is so similar to the 
one in Fukushima Daiichi. Is that right?
    Mr. Virgilio. No, we selected the plants quite some time 
ago.
    Mr. Waxman. But it is similar?
    Mr. Virgilio. It is a similar design, yes.
    Mr. Waxman. Now, the worst-case scenario is what the 
modeling was supposed to pick up, and they said there is a 
narrow margin of safety under the best of circumstances but 
some questions have been raised about the assumptions the NRC 
used in its SOARCA modeling. First, the nuclear crisis in Japan 
is now in its fourth week with no end in sight. NRC's 
simulation of a massive power loss at Peach Bottom stopped only 
after 2 days under the assumption that operators would be able 
to restore full power by then. Why was it stopped after a 2-day 
analysis? Why just 2 days?
    Mr. Virgilio. I would have to go back to the staff and get 
the details on why we specifically truncated that at 2 days.
    Mr. Waxman. Well, I would like to get that information 
because we would like to know if the Peach Bottom or similar 
reactor could withstand a longer crisis. Japan is already in 
its fourth week of its crisis.
    In addition, the NRC explained to our committee staff that 
the operator was able to avert core damage in the full power 
loss scenario by activating a steam-powered reactor cooling 
system, also known as the RCIC, but some NRC analysts have 
questioned the ability of this system to function when battery 
power is lost. There has been a Freedom of Information Act 
request by the Union of Concerned Scientists. They obtained an 
e-mail from a senior reactor analyst at NRC expressing concerns 
to other NRC staff about the utility of this steam-driven 
cooling system. The e-mail states that one concern has been 
that SOARCA credits certain mitigating strategies such as the 
steam-powered RCIC operation without DC power that have not 
really been reviewed to ensure that they will work to mitigate 
severe accidents. How do you react to that concern that was 
expressed by one of the NRC high-ranking personnel involving 
the worst-case scenario?
    Mr. Virgilio. In conducting that analysis, our staff did a 
walk-down of that system, and based on that walk-down, they 
made some engineering judgments about its ability to operate 
following a seismic event. Consistent with our culture, that 
was questioned by other staff members and that remains an open 
item today. As you know, that SOARCA analysis is still in 
draft. It is still under internal review, and that open item 
will need to be resolved before we move forward.
    Mr. Waxman. And what is the open item?
    Mr. Virgilio. Whether the systems that were credited in 
that parametric study would in fact work in that particular 
accident scenario.
    Mr. Waxman. And the SOARCA simulation assumed that the loss 
of power occurs in the result of a major earthquake, flood or 
fire. The NRC assumes that the new equipment and procedures put 
in place after 9/11 will help stave off a core melt in its 
simulated scenarios but the Union of Concerned Scientists 
obtained another internal NRC e-mail that raises concerns about 
these assumptions. That e-mail states that concern involves the 
manner in which credit is given to these measures such that 
success is assumed. Mitigations are just equipment on site that 
can be useful in an emergency when used by knowledgeable 
operators if post-event conditions allow. If little is known 
about these post-event conditions, then assuming success is 
speculative. As we have seen in Japan, these post-event 
conditions can be dire.
    Mr. Virgilio, you said earlier that the equipment is not 
seismically qualified. Are you confident that this equipment 
will be up to the task in the event of a major earthquake or 
another disaster?
    Mr. Virgilio. Let me go back and say that we don't rely on 
this equipment for safety. We have seismically qualified 
equipment, structure systems and components that are there to 
ensure the reactor is safely shut down in the event of an 
earthquake. We take these studies and we go well beyond the 
design basis and we assume that for whatever reason, and I 
guess I can back to where were in the beginning in terms of we 
are ignoring what can happen, the likelihood of what can happen 
and we just focus on the consequences. We assume----
    Mr. Waxman. Why is it so important in the study that the 
equipment be present?
    Mr. Virgilio. You are trying to understand how significant 
the consequences could be of these highly improbable events.
    Mr. Waxman. Well, I guess that is what worries us all.
    Mr. Virgilio. You are going out to test the envelope. This 
is--I think this is one of the advantages of the way we operate 
as opposed to an issue that you should be concerned about.
    Mr. Waxman. Well, I am not trying to be critical. I know 
you are trying to do the best job you can, but when some of 
your own people send e-mails questioning the assumptions, I 
just think it is important for us to raise it. We don't know 
all the facts about what went on in Japan but we do know that 
emergency workers have had to focus considerable time and 
effort on cooling down the spent fuel pools, but NRC's 
simulation of a full loss of power at the Peach Bottom nuclear 
facility does not even consider the impact on spent fuel pools, 
which require constant water circulation or cooling. Is there 
any reason to believe that spent fuel pools at Peach Bottom 
would be immune to the potentially catastrophic impacts of a 
full loss of power?
    Mr. Virgilio. Yes, because the spent fuel pools are 
seismically qualified at the plants in the United States and 
there are backup systems to provide water in to the spent fuel 
pools as well as cooling.
    Mr. Waxman. And is that all dependent on the assumptions 
that have already been made that some people are already 
questioning at the NRC?
    Mr. Virgilio. The assumptions that are being questioned go 
well beyond the design basis. They assume for non-mechanistic 
reasons that all of the seismically qualified structure systems 
and components are not there. We are testing the envelope. We 
are trying to understand the worst case absent any 
probabilities. The realistic case is that an accident occurs, 
structure systems and components that are seismically qualified 
will be there to respond.
    Mr. Waxman. I assume that was the assumption in Japan as 
well but the worst case happened. We just want to be prepared 
for the worst case here as well.
    Mr. Virgilio. And that is why we do these types of studies.
    Mr. Stearns. The gentleman's time has expired. The 
gentleman from Texas, Mr. Barton, is recognized for 5 minutes.
    Mr. Barton. Thank you, Mr. Chairman. I want to thank you 
for holding the hearing. I want to thank our witnesses for 
being here.
    What is the total number of deaths so far in the United 
States because of incidents at nuclear power plants that 
resulted in a failure of the safety systems at the power 
plants?
    Mr. Virgilio. I am not aware of any, sir. What you have is 
electric--you do have in fact fatalities as a result of 
electrocutions at any power plant but not as a result of the 
nuclear----
    Mr. Barton. So at Three Mile Island there was----
    Mr. Virgilio. No, sir.
    Mr. Barton. And there has never been a death because of a 
radiation issue at a civilian nuclear power plant?
    Mr. Virgilio. No.
    Mr. Barton. What about the situation in Japan right now? 
How many deaths have resulted because of the failure at the 
Fukushima plant units in Japan?
    Mr. Virgilio. We know of a couple of deaths that occurred 
as a result of the earthquakes but as far as radiation 
exposures, there have been no deaths that we are aware of.
    Mr. Barton. Do you know how many people have died because 
of the earthquake and the tsunami overall in Japan?
    Mr. Virgilio. I think we have estimates now on the order of 
over 11,000 people who are confirmed dead and maybe as many 
still missing.
    Mr. Barton. So we have 11,000 people confirmed dead because 
of Mother Nature but because of the failures of the Japanese 
containment systems and the safety systems, so far there are no 
deaths?
    Mr. Virgilio. That is our understanding.
    Mr. Barton. Are any of the workers at the plant suffering 
radiation sickness, to your knowledge?
    Mr. Virgilio. There were some workers that were 
overexposed, extremity overexposures as a result of walking in 
radioactive or contaminated water, but to the best of our 
knowledge, none of the workers have received more than we would 
set as a limit, the 25 rem, in the event of an emergency.
    Mr. Barton. So is it fair to say that in spite of what 
Chairman Waxman just talked about, worst case, in spite of the 
weaknesses, if that is the right term, of some of the safety 
systems in Japan, we are still protecting the public safety, no 
one has been killed, and at least so far no one has been 
seriously impaired in terms of illness. Is that a fair thing to 
say?
    Mr. Virgilio. That is our understanding, yes, sir.
    Mr. Barton. Now, I would assume that it is the NRC's 
mission to do everything humanly possible to keep our zero 
fatality safety record in the United States intact. I would 
assume you would agree with that.
    Mr. Virgilio. Yes, sir.
    Mr. Barton. Is it also fair to say that the safety systems 
in our existing plants in the United States and the new plants 
that are being considered are at a minimum at least as robust 
as those in Japan and in most cases stronger and more able to 
withstand worst-case situations?
    Mr. Virgilio. Yes sir, and we believe that there are 
systems that we have installed in the United States that may 
not have been installed on the Fukushima reactors.
    Mr. Barton. Now, just as an example, in terms of 
earthquakes, if it is not proprietary, to get a design 
certified and a facility certified to withstand an earthquake, 
what is the margin of safety that the plant has to withstand in 
addition to the most likely earthquake? In other words, in 
Texas, if you think you might have a 5.0 Richter scale 
earthquake, would that plant be designed to withstand a 6.0, 
which would be 10 times stronger than the most likely, or would 
it be five times more? What is the margin of safety that you 
generally look at?
    Mr. Virgilio. It is hard to generalize, and it might depend 
on the age of the plant as to how much margin. Early design 
requirements required margin but we didn't specify a certain 
percentage. Today when we look at the design of a nuclear power 
plant, we include a margin of about 1.5 to 1.67 percent to 
ensure that there is adequate margin to safety.
    Mr. Barton. I don't understand.
    Mr. Virgilio. It is somewhat complicated by the way we have 
written our regulations, and they have modified over time, but 
we look at the worst-case earthquake that has occurred in that 
vicinity and we translate that. We look at how far away the 
plant is and what the geology is between the location of that 
fault and the nuclear power plant and what the structural----
    Mr. Barton. But you put real thought into making sure that 
it is safe and then plus some?
    Mr. Virgilio. Yes, sir, we do include additional margins.
    Mr. Barton. My time is expired, Mr. Chairman, but I would 
encourage every member to go to the nearest operating nuclear 
plant in their districts or near their districts. I went to 
Comanche Peak several weeks ago and spent 2 or 3 hours there. 
In Texas, if there is any kind of a serious earthquake or 
natural disaster, I want to be in the control room at Comanche 
Peak because that is the absolute safest place to be, and I 
would encourage every member to go.
    Mr. Stearns. I thank the gentleman, and the gentleman from 
Texas, Mr. Green, is recognized for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman. I don't know if I will 
follow my colleague, because where we have ours near Houston, 
it is 11 miles from the coast and it probably is safe if a 
hurricane came through there, because we are not in an 
earthquake zone. There hasn't been one in what most people feel 
like geological time.
    Mr. Virgilio, as we have seen from accounts of the events 
in Japan, the spent nuclear fuel sitting in pools at Fukushima 
site have caused many problems. My understanding, there are two 
acceptable storage methods in the United States for spent fuel 
after it has been removed from the reactor core: spent fuel 
pools and dry cask storage. Most spent fuel is stored in pools 
and individual reactor sites and plants can also move the spent 
fuel to above-round casks, and then there is the Yucca Mountain 
issue, which the Subcommittee on Environment and the Economy 
plans to take up relatively soon. Even though I support Yucca 
Mountain, I won't put this in acceptable storage categories yet 
because there are so many diverse views on that issue. The 
question I have, as the spent pools are nearing their capacity 
in many plants around the country, how do the spent pools in 
the United States compare with the pools at the Fukushima 
reactor and are we holding more spent fuel than what Japan 
would be?
    Mr. Virgilio. The comparisons, I am not prepared to answer, 
but I can tell you that today in the United States we use two 
methods as you describe. There is the wet storage and spent 
fuel pools and the dry storage. Spent fuel after it is cooled 
for a few years is typically moved into dry cask storage. We 
believe that both methods of storage are in fact acceptable 
from a safety perspective. We do in fact see some advantages to 
the dry cask storage designs.
    Mr. Green. In 2006, the National Academy of Sciences issued 
a report showing that moving spent fuel from pools to dry cask 
reduces both the likelihood and potential impact of radioactive 
release from spent fuel. In fact, in 2008, Dr. Jaczko seemed to 
agree with that assessment, stating the most clear-cut example 
of an area where additional safety margins can be gained 
involved additional efforts to move spent nuclear fuel from 
pools to dry cask. In that same speech, he stated that the NRC 
should develop new regulations to require spent fuel be moved 
to dry cask storage after it has been allowed to cool for 5 
years. That was 3 years ago, and I understand such rulemaking 
has not been initiated.
    Mr. Virgilio, in light of the events in Japan, does the NRC 
have any plans to require reactor owners to store more of their 
spent fuel in dry casks rather than pools, and if not, can you 
elaborate on what the hesitancy is among the NRC or the 
industry to do so?
    Mr. Virgilio. We don't have any rulemaking plans underway 
today but we are looking at this again as part of our short-
term and longer-term lessons learned from the Fukushima event.
    Mr. Green. Are there any new regulations being considered 
for extending the battery life of the U.S. reactors in case of 
future natural disasters?
    Mr. Virgilio. Not at this time, but again, this is 
something that we are going to look at as a result of our 
lessons learned from this event.
    Mr. Green. How does the Mark I system differ today than the 
system used 39 years ago, and how would you respond to the 2006 
Sandia National Lab report saying that the likelihood of 
containment failure in the event of a core melt is nearly 42 
percent with the Mark I design? How specifically has GE updated 
this model?
    Mr. Virgilio. One of the most significant features I would 
say that has been installed on those Mark I containments is 
what we called a hardened vent, and that allows the release of 
hydrogen gas that has built up inside the containment to be 
vented out safely. As we saw in Fukushima, there were a number 
of explosions which we are assuming related to that hydrogen 
gas buildup. Had they had the hardened vent or had they used 
the hardened vent, this would not have been an issue.
    Mr. Green. We see images on TV and the newspapers the 
devastation caused by tsunami and earthquake in the situation 
at the facility in Japan. Today, over 3 weeks after the 
tsunami, they are still fighting to cool the nuclear reactor 
and contain exposure to radiation and stop a complete meltdown 
of the nuclear core. Can you give us a status update on the 
situation at the Fukushima Daiichi nuclear facility and how 
fragile is that situation and in Japan currently?
    Mr. Virgilio. All three of the reactors now are being 
supplied cooling with freshwater via makeshift systems. They 
are basically using fire pumps and fire trucks to provide water 
into those reactors. This is an improvement because it is a lot 
more reliable than what we were dealing with 2 or 3 weeks ago, 
and it is better because they are using freshwater rather than 
saltwater, which they were using at the beginning of the event. 
So we are seeing some improvements but we are still relying on 
fire trucks and pumpers and freshwater supplies that are not 
what I would consider the optimum of where we would like to see 
that facility be.
    Mr. Green. Well, and again, hopefully we are learning that 
we have to have redundancy and backups to deal with it instead 
of having, like you said, fire trucks and offshore boats trying 
to squirt water on the facility. There has got to be a way we 
can engineer it and plan for it and of course capitalize it 
over a period of years. Hopefully we will never have to use it, 
but if we do, it will be there.
    Mr. Virgilio. Yes.
    Mr. Green. Thank you, Mr. Chairman.
    Mr. Stearns. Thank you. The gentleman from Pennsylvania is 
recognized for 5 minutes.
    Mr. Murphy. Thank you very much, and I appreciate the 
comments of the witness.
    There are a couple things I just want to find out. When 
decisions are made to shut down or decommission a nuclear power 
plant, can you give me an idea of how long that takes and the 
scope of what kinds of decision are made in that process? It 
must be quite a big decision to go through.
    Mr. Virgilio. Those decisions are made by the licensees 
that we regulate, and I would have to defer to them as to what 
goes into their decisionmaking process. I am sure it has to do 
with economics around continued operation.
    Mr. Murphy. But are there levels too and recommendations 
made on safety issues too with regard to how if plants are safe 
designs or safe functioning, et cetera, these are, I assume, 
pretty massive sort of evaluations that are made.
    Mr. Virgilio. We license a nuclear power plant for 40 
years. Licensees are allowed to come in and ask for an 
extension. Half of the U.S. fleet now has extended their 
licenses an additional 20 years. That involves a significant 
safety assessment on our part focused primarily on the aging 
effects and what they might be with respect to continued 
operation of those facilities.
    Mr. Murphy. When you are also looking at these aspects and 
you are evaluating safety of a power plant, I am trying to get 
my arms around the magnitude of the probability of problems 
that may occur that you are looking at--the likelihood of a 
failure, all the things that must happen. Some of my colleagues 
on the other side of the aisle are bringing up things about 
some of these plants, and I am assuming--and if you could just 
walk me through briefly, although ``brief'' may not be giving 
you a fair assumption here. But a whole string of events have 
to occur and some of those I am assuming from what is being 
brought up are highly improbable things. I say again that 
Lancaster, Pennsylvania, is a few hundred feet above sea level 
and it was a tsunami that wiped out the Japanese plant. It 
wasn't the earthquake, it was the tsunami. The plant, I 
understand, was built to be tolerated 5-meter-high water level 
and it was about 13, 14 meters high of water. We would have to 
have a flood that would make Noah look small to handle this.
    But can you give us some idea of the magnitude of the 
probability of things that you look at when you are trying to 
evaluate the safety of plants and if we need to increase that?
    Mr. Virgilio. As part of the design review for the 
licensing of a nuclear power plant, we look at a whole host of 
scenarios of what could happen within a reasonable range of 
probabilities and ensure that there are design features there 
to mitigate each one of those events and we look at what is 
beyond the likely. We go out to severe accidents. And again, we 
look at what could happen and what are the features of the 
plant that are designed in order to ensure that those events 
are mitigated.
    Mr. Murphy. And you also look at various mixtures of those?
    Mr. Virgilio. Thousands of hours of NRC and licensee input 
to evaluating each one of those scenarios to make sure that we 
understand what could happen, how likely is it, what the 
consequences are and what systems are installed in order to 
ensure that that doesn't happen or cannot happen.
    Mr. Murphy. And when you identify a plant that doesn't have 
those kind of systems installed and they can't adapt to it, 
what recommendations do you make then?
    Mr. Virgilio. Well, during the licensing process, the plant 
wouldn't get a license if it didn't have the systems we felt 
necessary. If in fact there was an operating event that brought 
us to a conclusion that a plant or a category of plants did not 
have the required equipment, we would issue orders and change 
our regulations, and we have done that time and time again 
throughout the history of the NRC.
    Mr. Murphy. I know for example the Fort St. Vrain plant in 
Colorado was shut down because it could not make those kind of 
standards. That was an example of the system working. And we 
want to know if the system is working or if there are things we 
need to do regulation-wise or with regard to legislation to 
increase those levels. Do you need things from us to increase 
the level of oversight or other regulatory changes in this?
    Mr. Virgilio. Not at this point in time. If we do, we will 
certainly make that request.
    Mr. Murphy. I want to ask too, if I could, about the points 
have been brought up about some of the e-mails going back and 
forth between scientists on that and if you are using those e-
mails to come up with some regulations as well. I think you 
have not come up with any final version. Can you tell me what 
impact these e-mails are having upon what you are reviewing and 
what you are doing?
    Mr. Virgilio. Those e-mails will in fact have an impact on 
how we complete the SOARCA study that we have talked about 
earlier. The staff raised some very interesting and I think 
very good considerations that we need go back and look at in 
this study that we took credit for certain equipment that is 
not seismically qualified. We need go back and either convince 
ourselves that that equipment would work or do the analysis in 
a very different way.
    Mr. Murphy. I appreciate that. We want to know that you are 
rising this to the highest standards of science. Thank you very 
much.
    Mr. Stearns. The gentleman's time is expired. The gentleman 
from Massachusetts, Mr. Markey, is recognized for 5 minutes.
    Mr. Markey. Thank you, Mr. Chairman.
    The cores of at least two of the Japanese reactors are 
severely damaged. I have just been informed by the Nuclear 
Regulatory Commission that the core of unit 2 has gotten so hot 
that it has probably melted through the reactor pressure 
vessel. To bring the reactors and their spent fuel pools under 
control, the Japanese have had to resort to sending young 
workers in to risk their lives as they operate what amounts to 
giant water guns. To assess and then sop up the radioactive 
water that has been spewing into the ocean, they are relying on 
the use of bath salts and diapers. Just like the use of 
pantyhose and golf balls to stop last year's BP oil spill, the 
Japanese have been compelled to try a nuclear junk shot in a 
desperate amount to stop an environmental calamity. The 
Japanese are making it up as they go along. Yet the Nuclear 
Regulatory Commission insists that our systems are safe even 
before beginning, let alone completing, its review of our 
reactors and spent fuel pools.
    Mr. Virgilio, you have said several times today that the 
Fukushima reactor did not have the same hardened vents that 
some reactors here have to prevent hydrogen explosions but just 
yesterday my office was informed by the Nuclear Regulatory 
Commission that this is not the case and that the Japanese 
reactors did have them. So which is it?
    Mr. Virgilio. If they have them, sir, I don't believe they 
used them, given what we saw in terms of the detonation and----
    Mr. Markey. Why would they not have used them?
    Mr. Virgilio. That is not clear to us, nor is it clear to 
us that the reactor has penetrated the vessel----
    Mr. Markey. I think what happened was, they had them but 
they did not work. I think that is the only conclusion which we 
can reach, but they did have hardened vents. I just wanted to 
put that on the record, and that came to me from the Nuclear 
Regulatory Commission yesterday.
    After Three Mile Island, which also involved a hydrogen 
explosion, a requirement to include a number of measures to 
prevent hydrogen from building up and causing explosions were 
put into place, but in 2003 the NRC removed some of these 
requirements from its regulations, in part because it concluded 
that they would not help in a severe accident like a Fukushima 
meltdown. Although some nuclear reactors may still have these 
systems installed, the NRC does not require them to actually 
work. Is that not right?
    Mr. Virgilio. We have removed the technical specifications 
and requirements for their operability, yes, sir.
    Mr. Markey. Meaning you don't require that they have to 
work, which I don't think is something that should be the law. 
I think you should change it. They should have to work.
    Now, don't many of these measures also require electricity 
so that they could fail to operate if there was an electricity 
outage at a nuclear reactor?
    Mr. Virgilio. The systems, if they are there and installed 
and still required are to have backup power.
    Mr. Markey. And that backup power could be a battery and 
your request that it last 8 hours maximum. Is that correct?
    Mr. Virgilio. More likely the diesel generators that are 
required to operate for at least 72 hours.
    Mr. Markey. What is your requirement for batteries? Eight 
hours?
    Mr. Virgilio. It depends. It depends on the design of the 
onsite and offsite power systems.
    Mr. Markey. What is the maximum for batteries that you 
require?
    Mr. Virgilio. I would have to check on that detail.
    Mr. Markey. Now, the diesel failed, did it not, in 
Fukushima?
    Mr. Virgilio. We believe as a result of the tsunami washing 
away the----
    Mr. Markey. So if the diesel fails, then the batteries 
become the backup, and if the battery is only required to last 
8 hours, that probably isn't something that is reassuring to 
people because there are going to be perhaps hundreds of 
billions of dollars of loss in Japan because these systems did 
not work and many of these costs are just going to be for the 
compensation of innocent victims.
    Two of the hydrogen explosions in Japan occurred due to 
hydrogen buildup in the spent fuel pools. Isn't it true that 
none of these measures are ever used to protect spent fuel 
containment from a hydrogen explosion?
    Mr. Virgilio. Correct.
    Mr. Markey. That is correct? Thank you. So basically 
whatever equipment is in place to prevent hydrogen explosions 
has been made optional by the NRC or has just catastrophically 
failed in Japan. So that is something that we just have to take 
note of here in our country and require a full-scale 
reevaluation of all of the assumptions which we have made. 
There was a 9.0 earthquake in Oregon 100 years ago. We are not 
talking about prehistoric times. And we just have to make sure 
that we have got these protections that are in place, that work 
and are mandated by the NRC.
    Mr. Barton. Mr. Chairman?
    Mr. Markey. And that is not the case today.
    Mr. Stearns. And I thank the gentleman. The gentleman's 
time is expired.
    Mr. Barton. Mr. Chairman?
    Mr. Stearns. Yes. The gentleman is recognized.
    Mr. Barton. I would like to ask you to ask former Chairman 
Markey if the materials that he referred to that he received 
from the NRC with regard to the vessel wall and some of the 
issues, if they could be made available to other members of the 
subcommittee?
    Mr. Markey. Without any problem at all.
    Mr. Barton. Since there seems to be some question from this 
witness whether the materials that Mr. Markey obtained are as 
valid as they are purported to be, so I would appreciate that.
    Mr. Stearns. OK, and I appreciate the gentleman from 
Massachusetts providing that for the rest of the committee 
members, and the gentleman from California, Mr. Bilbray, is 
recognized for 5 minutes.
    Mr. Bilbray. Thank you, Mr. Chairman. Just for the record, 
as the gentleman from Massachusetts pointed out, that Oregon, 
Washington and Alaska is where a 9.0 could occur anywhere 
within the United States territory. California, it has been 
pointed out, that a 7.0 is the maximum that is possible on our 
side, and the gentleman from Massachusetts may be interested 
that Secretary of Energy Chu has pointed out that that 7.0 will 
occur every 7,000 to 10,000 years. So I think that when we talk 
about what is possible out there, I think Secretary Chu made it 
quite clear that you guys, Mr. Virgilio, are planning for the 
worst possible as geologists have pointed out and then on top 
of that the lateral stresses that places like San Onofre was 
designed for looks like it was almost twice of what the 
original design of the Japanese plant was. Isn't that fair to 
say?
    Mr. Virgilio. We are not exactly sure about the design 
details on the Japanese plant.
    Mr. Bilbray. My big question is, the number of the original 
design was half, and they were trying to retrofit up to a 
standard somewhere close to us, and I was just wondering if 
anybody knows how far they got with that retrofit before this 
earthquake.
    Mr. Virgilio. We would have to get back to you on that, 
sir.
    Mr. Bilbray. OK. Let me just tell you one thing as somebody 
who has listened to a lot of testimony here. There is a lot of 
reason why people testify and vacillate around here but for you 
to say allowing us to say with confidence that the U.S. plants 
continue to operate safely, you realize the risk you are taking 
by coming out and saying that out front? This is the reason why 
witnesses usually aren't making those kind of decisions. Mr. 
Virgilio, do you understand how much you are taking a risk of 
being attacked?
    Mr. Virgilio. I don't think that that is a risk at all, 
sir, based on the design and operation of the nuclear power 
plants.
    Mr. Bilbray. You are talking facts, you are not talking 
politics. I am just saying that in this town, anybody who 
stands up and lays out what they think is the truth in clear 
and defined limits. It exposes them to attack. And I would just 
like to say, I guess you are used to it, but expect to be 
assaulted for being brave enough to say in public what a lot of 
people know or think they know, and the fact is other people 
don't want to hear about.
    So let me go back. Mr. Chairman, Mr. Waxman pointed out 
quite appropriately that we want to make our nuclear facilities 
as safe as possible, and I would ask that while we are talking 
here that we ask the Science Committee to join us in a joint 
hearing to talk about the fact that we are operating with 40-
year-old technology and what can we do in the future to go to 
technology, and as the witnesses will know, there is technology 
out there that eliminates the possibility of the hydrogen being 
created. There is a lot of these kinds of issues that we ought 
to be talking about, not just talk about what we do with these 
older plants but do we do to move forward with a safe program, 
and I hope that we can join with the Science Committee----
    Mr. Stearns. Will the gentleman yield?
    Mr. Bilbray. Go ahead.
    Mr. Stearns. I think that is a very good idea, and 
particularly with these backup generators and understand how to 
make sure that they work and the batteries, so I think that is 
a good suggestion to work with Mr. Ralph Hall, who is the 
present chairman of the Science Committee, who is a former 
member of Energy and Commerce, so your suggestion is well taken 
and I will talk to Mr. Hall.
    Mr. Bilbray. I appreciate that.
    Mr. Virgilio, the comparison that we are looking at in 
California where our earthquake faults are to the inland, not 
out. Ours do not plunge and fall like the Japanese. Do we have 
any indication there was major failure in the Japanese plant 
before the tsunami hit?
    Mr. Virgilio. No. As a matter of fact, it appears from what 
we know today that as a response to the earthquake, the plant 
shut down safely as designed. It was the tsunami that has 
caused the problems.
    Mr. Bilbray. So even though their design looks like it was 
much less than ours and was never designed up to the 9.0 or at 
least in theory wasn't, it did survive that hit even though 
that earthquake was only 100 miles from their area, so it was 
the tsunami that we have really got to talk about. OK. So they 
were inundated, their units. Our units at San Onofre and at 
Diablo, they are protected not by a ten-foot surge wall but I 
think one is 25 and I think Diablo is over 85?
    Mr. Virgilio. Yes, Diablo is up on a cliff.
    Mr. Bilbray. Up on a cliff. And second of off, the 
generating systems at those two facilities are encased in the 
mountain, sealed off so they are protected even if the surge 
wall was breached, are protected from the hit?
    Mr. Virgilio. Yes. As a matter of fact, what we know today 
about the Fukushima design was it was their fuel oil tanks that 
were not as protected and that may have been the cause of the 
loss of----
    Mr. Bilbray. And in the California example, our fuel oil 
basically is way up on top of the hillside?
    Mr. Virgilio. It is well protected.
    Mr. Bilbray. OK. And even if the units were submerged, they 
are designed to operate with that capability in most instances?
    Mr. Virgilio. No, the units are not designed to be 
submerged. They are protected from being submerged.
    Mr. Bilbray. OK. Thank you. I appreciate that. I just think 
that we are trying to clarify the limits. So basically you are 
willing to say that right now under the same situation, even 
though geologists say it could not happen within 7,000 to 
10,000 in frequency but the fact is, we have designed to that 
where the Japanese had not created those safety buffers that we 
have now?
    Mr. Virgilio. It appears that they were not designed for 
that tsunami.
    Mr. Bilbray. Thank you very much. I appreciate it.
    Mr. Stearns. The gentleman's time is expired and yields 
back the balance and Ms. Christensen of the Virgin Islands is 
recognized for 5 minutes.
    Dr. Christensen. Thank you, Mr. Chairman.
    My question, Mr. Virgilio, is about the evacuation zone. On 
March 16th, the Nuclear Regulatory Commission in collaboration 
with the Department of Energy and other U.S. government 
agencies advised American citizens within a 50-mile range 
around the stricken Fukushima nuclear plant evacuate. The 
Japanese limited their mandatory evacuation zone to within 12 
miles of the site. In a speech on Monday, Chairman Jaczko 
called the NRC's decision, and I am quoting, ``a prudent course 
of action.'' He also stated that the evacuation range was 
predicated on information that the NRC had available at that 
time. So Mr. Virgilio, can you briefly describe the information 
on which NRC based that decision?
    Mr. Virgilio. Let me let my colleague, Don Cool, answer 
that, please.
    Mr. Cool. The NRC had available to is limited information 
but knew that there was damage at the reactor and that there 
appeared to be damage to some of the spent fuel pools. Under 
that circumstance, we determined that it was prudent to include 
a significant portion of two of the spent fuel pools and one of 
the reactors in a release that could possibly occur. Under that 
circumstance and using our modeling, we included that if such a 
release occurred all at once with a wind direction which was 
over land, that radioactive materials could be moved out to a 
distance that would include 50 miles. As we try to make our 
recommendations on the possibility of what could happen so that 
the actions can take place before any individuals are actually 
put at risk, we deemed it was prudent to make that 
recommendation.
    Dr. Christensen. Thank you. And Chairman Jaczko also said 
that the 50-mile zone was, again, I am quoting, ``consistent 
with what we would do in a similar situation in the United 
States.'' But U.S. nuclear power plants are only required to 
develop emergency evacuation plans for people living within 10 
miles of a reactor. So could you describe how this 50-mile 
evacuation zone is consistent with the Protective Action 
Guidelines established for emergencies here in the United 
States?
    Mr. Cool. The Protective Action Guidelines provide both for 
a 10-mile protective action for a plume and a 50-mile zone. We 
also require and work diligently on training and planning for 
other scenarios. The planning guides specifically provide for 
the option to increase the distance out as information becomes 
available as necessary using the planning base, which is well 
trained. We would rely on the licensee interacting with the 
State. We would be trying to validate that information and 
validate to the State the recommendations that would be made. 
It is consistent with the planning guides that we work with 
FEMA and Homeland Security.
    Dr. Christensen. OK. Since the NRC issued its 50-mile 
evacuation advisory, the International Atomic Energy Agency and 
others have measured high levels of radiation in areas 
surrounding the Fukushima plant including towns outside of the 
12-mile Japanese evacuation zone. Does any of that data make 
you doubt the Commission's decision to advise evacuate for a 
50-mile radius?
    Mr. Cool. No, ma'am.
    Dr. Christensen. And does the NRC plan to consider 
enlarging the 10-mile evacuation radius for reactors in the 
United States in light of the events in Japan?
    Mr. Cool. That will be one of the items which we will 
certainly be reexamining as to a comprehensive look at all of 
the aspects and lessons learned from this facility.
    Dr. Christensen. Thank you.
    And Mr. Virgilio, in your testimony you said in response to 
the events, licensees have voluntarily verified their 
capabilities to mitigate conditions that result from severe 
accidents including the loss of significant operational safety 
systems. Is this something that ordinarily they would 
voluntarily have to do or are they required? Are there 
specifics requirements and how often do you review these plans 
for safety?
    Mr. Virgilio. It did not surprise me at all that the 
licensees voluntarily took this action. They actually got out a 
little bit ahead of us on this, and again, that is the culture 
of the nuclear community in the United States today. We 
provided information to them and they acted on it immediately.
    Dr. Christensen. And do you think would ordinarily they 
just do this voluntarily or had they not jumped out ahead of 
you, would you have required----
    Mr. Virgilio. Yes, we would have, but again, it did not 
surprise me that they voluntarily took that action.
    Dr. Christensen. And the incidents also of course raised 
much-publicized questions--well, my time is up.
    Mr. Stearns. I thank the gentlelady. The gentleman from 
Colorado, Mr. Gardner, is recognized for 5 minutes.
    Mr. Gardner. Thank you, Mr. Chairman. Thank you, Mr. 
Virgilio, Dr. Cool, for your time and testimony today.
    And obviously what has taken place in Japan is tragic. In 
the wake of this disaster, I believe it is very important that 
we learn, as do you, everything we can from what happened and 
move forward in the United States on our energy policy 
including our nuclear policy, and I applaud you at the NRC for 
your 90-day review to take stock of what lessons can be learned 
from Japan and how to move forward, but a couple of questions 
based on some of the things that I have heard today and some of 
the other questions you have raised.
    Post-September 11, 2011, what extra measures has the United 
States put in place that really ensures nuclear power safety 
and our nuclear plants will continue to have power in the wake 
of an earthquake or other incident?
    Mr. Virgilio. Well, 9/11, the focus was on security, so 
while we did have security forces as a requirement at all of 
the nuclear facilities, the power plants in particular, what 
you saw was an expansion and a hardening of the security we had 
in place. We also looked at a few events that could also occur 
involving--and I am dancing around this a little bit because I 
am trying not to get into any classified information.
    Mr. Gardner. I understand.
    Mr. Virgilio. But we also took a look at what else could 
happen as a result of either terrorist attacks or other things, 
and we came upon this notion of requiring licensees to have 
additional equipment in place. In addition to having the 
hardened facility, in addition to hardening the perimeter and 
having more guards there, we actually required some additional 
equipment. This is what was referred to earlier as the B.5.b. 
equipment.
    Mr. Gardner. So power continuity has certainly been a part 
of your plan and requirements, making sure that power is in 
place and up and running after----
    Mr. Virgilio. Really, our requirements are more about the 
safety of the nuclear facility. We are not about generating 
power. Our focus is really on ensuring that the power that is 
generated is done safely.
    Mr. Gardner. Yes. I am sorry for that line of questioning. 
I just want to make sure that we are giving you enough 
opportunity to answer some of the questions that were raised 
about the power supply to the plant in times of a situation 
where there may be power disruption to the plant.
    Mr. Virgilio. We look very carefully at that. We ensure 
that there is in fact multiple redundant and diverse supplies 
of power to the plant. We require onsite power supplies in 
terms of emergency diesel generators. And then we assume all of 
that fails and we require the plants to be able to cope with 
the loss of onsite and offsite power for a certain period of 
time, and that period of time is determined by the reliability 
of both the onsite and the offsite power supplies, which vary 
across the country, particularly the offsite power supplies.
    Mr. Gardner. And as we have seen and you have said today, 
the challenge in Japan of course was not the earthquake; the 
challenge in Japan was the tsunami.
    Mr. Virgilio. Yes, that is our understanding.
    Mr. Gardner. And in some of the conversations we have heard 
today about e-mails regarding scientists, scientists were doing 
what they were supposed to be doing, which is trying to put any 
question, any scenario forward and having a good back-and-forth 
and an open discussion. Is that correct?
    Mr. Virgilio. Absolutely. That is the culture that we 
encourage at the NRC.
    Mr. Gardner. And based on that, some of the discussions we 
have heard about FOIA and other e-mails, that was a year ago, 
the draft report. It has never been concluded and your actions 
haven't had anything to do with those e-mails. Is that correct?
    Mr. Virgilio. Where we are today, it is still a draft 
report, and those issues are still open items that have not yet 
been resolved. If you looked at any study that we do in the NRC 
today, you would probably find similar e-mails where staff are 
debating the issues internally.
    Mr. Gardner. Trying to find the holes, trying to make sure 
you are covering every possible contingency?
    Mr. Virgilio. Right. Exactly. Yes, that is correct.
    Mr. Gardner. Including tsunamis in Pennsylvania?
    Mr. Virgilio. I don't think we are doing any studies on 
that today.
    Mr. Gardner. And Mr. Virgilio, with respect to the spent 
fuel pools, we talked a little bit about the dry storage casks. 
What are the advantages and disadvantages of--some believe the 
United States should remove older spent fuel pools and place 
them in dry storage casks. What are the advantages and 
disadvantages of that policy?
    Mr. Virgilio. Today we believe both designs are safe, but 
if you look at the highest level, you look at the dry cask 
storage, it is all passive systems. If you have it in the pool, 
you are required to have cooling systems, heat removal systems 
and systems to maintain the level as well as the purity of the 
water. So you put it in a cask, it is pretty much done with for 
the life of the cask.
    Mr. Gardner. And in the United States, what do U.S. plants 
do to protect against explosion or leaks in these pools?
    Mr. Virgilio. Today, what we--explosions are prevented in 
terms of ensuring that you have safety-related seismically 
qualified systems to provide level control and cooling, so 
there is always water over the fuel to prevent fuel damage and 
hydrogen generation.
    Mr. Gardner. And after September 11th, you went to a 
checkerboard type of pattern of storage. Has Japan done the 
same thing?
    Mr. Virgilio. I don't know if they have. We have not only 
gone to disperse the hottest fuel in the pool so it is located 
in different locations so it is not all grouped together and we 
have also provided additional measures to put water into the 
pools.
    Mr. Gardner. But we don't know if Japan has done the same 
thing?
    Mr. Virgilio. We don't know.
    Mr. Gardner. And the safety of the fuel pools, particularly 
the design of the reactor types in Fukushima appears to raise 
legitimate vulnerability concerns. What has been done in the 
United States--you have talked a little bit about it before--to 
assure adequate emergency cooling rather than what we have 
seen?
    Mr. Virgilio. For the spent fuel pools?
    Mr. Gardner. Correct.
    Mr. Virgilio. All of what is there for cooling is 
seismically qualified, which I believe is probably true in 
Japan as well today. What we have today as a result of some of 
the lessons learned and analysis that we did post 9/11 are 
additional backup systems beyond the seismically qualified 
safety-related systems. There are now systems in place that put 
additional water into the spent fuel pools should an event 
occur that would disable all of the safety-related equipment.
    Mr. Gardner. Thank you.
    Mr. Stearns. I thank the gentlelady. Next, I believe, is 
the gentleman from Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman. Thank you all for 
being here. I have learned a lot already.
    Let me go back to some of the questions that the gentlelady 
was asking a couple of minutes ago. As I understand it, right 
now we only have for 10 miles if there is a nuclear problem, is 
that correct, to evacuate, et cetera?
    Mr. Cool. The planning requirements include a 10-mile EPC, 
evacuation planning zone, for a plume and a 50-mile zone 
related to ground contamination and food contamination, so 
there are two different zones. The 10-mile zone is the area 
related directly to the plume and short-term exposure, which is 
carefully planned and drilled and prepared.
    Mr. Griffith. All right. And in light of the fact that we 
evacuated our folks from Japan at 50 miles and the fact that it 
does appear that they have had problems further than 10 miles, 
they did a 12-mile and I think that Dr. Lyman's data indicates 
that there were some hot spots 25 miles out and so forth--and I 
think you said yes but I want to clarify--do you anticipate 
that there may be an extension of the evacuation zone out a 
little bit farther than the 10 miles?
    Mr. Cool. I do not want to speculate whether that change 
will or will not be put in place. That is something that needs 
to be looked at, needs to be looked at in the context of all of 
the other requirements that we have in place and done in 
consultation with our States, with FEMA, DHS and other 
organizations that we work cooperatively with.
    Mr. Griffith. Let me ask this, and it is just something 
that I think is pretty easy. Evacuation is not easy but 
providing the potassium iodide in sufficient quantities in 
areas around nuclear reactors, that should be fairly easy. 
Doesn't it keep fairly well?
    Mr. Cool. Potassium iodide tablets will keep reasonably 
well. I can't give you a specific half-life.
    Mr. Griffith. So we would theoretically at the very least--
I know evacuation takes a lot of plans but we could fairly 
quickly provide or make arrangements to have potassium iodide 
produced in sufficient quantities and have it in a larger area 
than the 10-mile zone, could we not?
    Mr. Cool. That could be one possibility. Ideally, you would 
provide protection by not having the individuals exposed, and 
also keep in mind that potassium iodide is good only if you are 
going to be subject to an inhalation or intake hazard of 
iodine. It does not provide you from any other external 
radiation or other forms.
    Mr. Griffith. All right. I heard something on the news this 
morning, and I apologize--I had to step out for a minute--if 
you already covered it, but there was something that I heard 
that indicated that there was some deterioration of the 
building surrounding the nuclear plants in Japan. Do you all 
have any up-to-date information on that?
    Mr. Virgilio. Our latest updates are there have not been 
changes of that nature in the last several weeks, I mean, since 
the hydrogen detonations that you all hopefully saw on 
television.
    Mr. Griffith. All right. And then is there anything that I 
should ask that I haven't asked?
    Mr. Virgilio. Not that I can think of. You were pretty 
comprehensive.
    Mr. Griffith. All right. Mr. Chairman, I yield back my 
time.
    Mr. Stearns. The gentleman yields back and we have the 
gentleman, Mr. Scalise, is recognized for 5 minutes.
    Mr. Scalise. Thank you, Mr. Chairman. It sounds like all 
the questions have been asked based on the witnesses' 
testimony, but I appreciate the hearing, Mr. Chairman, as well 
as our panelists, and I know we have got another panel 
afterwards. On the next panel, there is a witness, just looking 
at some of the testimony, that looks like is going to give 
testimony that there is not sufficient battery backup at U.S. 
nuclear facilities, and in particular he alleges that 90 
percent of U.S. reactors only have 4-hour capability. Can you 
address that concern from what we see in the testimony of the 
next panel will be brought up?
    Mr. Virgilio. Over a decade ago when we promulgated this 
what we call station blackout rule that assumed that all these 
diverse sources of offsite power are unavailable and all the 
diesel generators that are required, onsite power supplies are 
unavailable. So you assume all those conditions occur and then 
you have to cope with a station blackout for a certain period 
of time. Now, the coping time sort of depends on the 
reliability of the offsite network so we used reliability and 
ability to restore the offsite power supplies as a mechanism to 
define the coping times. There is roughly a 60/40 split. If you 
look at the 104 nuclear power plants in the United States, 
roughly 60 percent of those have alternating power, additional 
onsite power supplies, either additional diesel generators or 
gas turbines beyond the safety-related equipment that are 
assumed to have railed in this analysis. So roughly 40, 40 
percent of the plants rely on batteries. The battery coping 
times again vary depending on the analysis that was performed. 
But in each case, the analysis we concluded as the NRC that 
there was a sufficient amount of time on those batteries that 
would allow the restoration of power either from onsite or 
offsite sources.
    Mr. Scalise. What would a sufficient amount of time be?
    Mr. Virgilio. It could be 8 to 16 hours. I can't recall 
offhand today exactly what the time period was. Each coping 
analysis was different, again, depending on the location of the 
plant and the reliability of the offsite power supplies. But 
again, only 40 percent of the plants relied on the batteries. 
Sixty percent of the plants relied on other sources of 
alternating power onsite.
    Mr. Scalise. But even within the 40 percent of the 
facilities in America, we are just talking about America right 
now, not comparing what is happening in Japan.
    Mr. Virgilio. Right.
    Mr. Scalise. But of the 40 percent of the U.S. nuclear 
facilities that have a battery backup, you are confident from 
what you all have seen that the amount of time that would be 
required for that battery capacity sufficient to prevent this 
type of disaster?
    Mr. Virgilio. Yes. That said, yes, given our culture of 
continuous evaluation, in light of the Fukushima events we are 
going to go back and look at that again.
    Mr. Scalise. OK, and I appreciate that, and I know you all 
have said you all are going to obviously from any disaster--
and, surely in south Louisiana we have gone through more than 
our fair share--and you learn from each of those and you 
improve your redundant systems, even the ones that fail. And so 
I would imagine you are all doing that as well.
    Another lesson from Fukushima, it looks like the 
combination of events seemed to go beyond the design for a 
basic facility is where they are having their problems. When 
you look at United States nuclear facilities, how do we prepare 
for those kinds of events where it actually does go beyond the 
design?
    Mr. Virgilio. We actually look at severe accident 
management by use of additional equipment, some of which we 
have already talked about today, and procedures for using that 
equipment. A lot of what we are doing today in terms of 
coaching and supporting the Japanese is right in that area. We 
are using our severe accident management guidelines and 
strategies. We are actually providing advice to the Japanese 
government on how to use those kinds of strategies, given the 
conditions that they have today.
    Mr. Scalise. And I appreciate you all's help in working 
with them because it is something that we are all concerned 
about. We, of course, are very concerned about the people of 
Japan and their health and safety, but also we want to make 
sure that if we can give them expertise, we are, and then we 
are also looking to make sure that our facilities have the 
proper backup, and I appreciate the work you all are doing to 
not only review what you have already done but to see if there 
are other steps we can take because it is still an important 
source, I think, of our energy needs in the future just as it 
is today, so I appreciate that and I yield back.
    Mr. Stearns. The gentleman yields back, and by unanimous 
consent, we have the chairman of the Energy and Power 
Subcommittee who would like to participate and ask questions, 
and if there is objection, Mr. Whitfield will be recognized for 
5 minutes.
    Mr. Whitfield. Well, thank you, Chairman Stearns, and thank 
you all for being here today. We appreciate it.
    When was the first nuclear power plant put into operation 
in the United States?
    Mr. Virgilio. 1957.
    Mr. Whitfield. And the only significant incident was Three 
Mile Island. Would that be correct?
    Mr. Virgilio. I think that was the most significant issue 
that we have had in the United States.
    Mr. Whitfield. And it is my understanding that 
international agencies have a matrix from level one to level 
seven with seven being the most serious incident. Is that 
correct?
    Mr. Virgilio. Yes. The International Nuclear Event Scale 
goes from one to seven. TMI was a five on that scale.
    Mr. Whitfield. Three Mile Island was a five?
    Mr. Virgilio. Three Mile Island was a five on that scale.
    Mr. Whitfield. And Chernobyl was seven?
    Mr. Virgilio. Seven on that scale.
    Mr. Whitfield. And have they determined yet where the Japan 
incident would be?
    Mr. Virgilio. I think it is yet to be determined but right 
now they are preliminarily calling it a five.
    Mr. Whitfield. Now, I read this somewhere. I don't know if 
it is correct or not, so you all can let me know. But I had 
read that if you had been on the property line at Three Mile 
Island when that incident occurred that a person would have 
been exposed to radiation equivalent to a chest x-ray. Is that 
accurate or not accurate?
    Mr. Cool. I do not recall if that is specifically accurate. 
My recollection is it was actually less than that.
    Mr. Whitfield. Less than that? OK. Now, one other question 
I wanted to ask, then I know there is another panel and I 
appreciate you all giving me this opportunity. I know that 
there is a nuclear plant in Japan that is sort of modular 
plant, a smaller plant that is cooled by liquid sodium, and my 
question is, I don't think there are plants in the United 
States cooled by liquid sodium, or is there?
    Mr. Virgilio. We had one at one time. Fort St. Vrain was a 
sodium-cooled reactor but it is now decommissioned.
    Mr. Whitfield. But it is my understanding that the liquid 
sodium cooling what was basically discovered in the United 
States or developed in the United States?
    Mr. Virgilio. We did develop that technology, yes.
    Mr. Whitfield. Now, is there anything inherently safer 
about that kind of cooling system versus any other?
    Mr. Virgilio. There are advantages and disadvantages to 
each of the designs, and you mentioned the small modular 
reactors. Today in the United States, we are looking at a full 
including the sodium-cooled reactors but I think the more 
likely ones, the ones that are being talked about being first 
deployed in the United States, are light water-cooled reactors.
    Mr. Whitfield. All right. I yield back the balance of my 
time. Thank you.
    Mr. Stearns. I thank my colleague for participating and we 
look forward to him again coming to visit with us.
    I think before, Mr. Virgilio, we let you go, I am going to 
ask briefly some questions and offer this opportunity for the 
ranking member also. Was the 50-mile evacuation plan an NRC 
decision?
    Mr. Virgilio. It was an NRC recommendation.
    Mr. Stearns. Was there a vote on this recommendation?
    Mr. Virgilio. It was coordinated with a number of other 
agencies including Department of Energy, OSTP, the White House.
    Mr. Stearns. Well, if there wasn't a vote on it, how did it 
get implemented? Can these recommendations, the 50-mile 
evacuation plan be implemented without a vote by the 
commission? Just yes or no.
    Mr. Virgilio. I don't know. We are talking about Japan and 
the events in Japan. That was done without a commission vote.
    Mr. Stearns. In 1988, the NRC adopted the station blackout 
rule or the 50 C.F.R. 50.63. That rule requires plants to be 
able to provide a station blackout for a specific period based 
on certain factors like the reliability of emergency power 
sources, the time needed to restore offsite power and certain 
information about the reactor core. What blackout period can 
U.S. plants survive?
    Mr. Virgilio. It depends on the location of the facility 
but it is typically on the order of 4 to 16 hours.
    Mr. Stearns. We are having on the second panel Dr. Lyman. 
He is a witness on the next panel. In his written testimony, he 
states that the U.S. plants are only required by the NRC to 
have sufficient battery capacity to cope with a blackout for 
only 4 to 8 hours. In fact, Dr. Lyman states that 90 percent of 
U.S. reactors have only 4 hours of backup battery power. Is 
that true? Do you agree?
    Mr. Virgilio. I don't agree.
    Mr. Stearns. You don't agree?
    Mr. Virgilio. I believe that 60 percent of the plants in 
the United States don't rely solely on the batteries. In that 
rulemaking, they rely on other sources of power on site, and 
that is preceded by the fact that each site has to have 
redundant emergency diesel generators and multiple ties to the 
offsite network. So the station blackout rule assumes that none 
of that is operable, and then it goes on to postulate and 
require additional onsite power supplies.
    Mr. Stearns. Does the NRC require any other form of backup 
power other than the batteries?
    Mr. Virgilio. Well, the normal power supplies are diesel 
generators that are located onsite that are seismically 
qualified safety-related diesel generators that would provide 
power should there be a loss of offsite power to the nuclear 
power plant.
    Mr. Stearns. If that paradigm was true in Japan that is 
here in the United States, would that have made a difference, 
in your opinion?
    Mr. Virgilio. I believe it was in place in Japan, and what 
made the difference was the tsunami and we believe now it had 
an impact on the fuel oil supply for the onsite diesel 
generators.
    Mr. Stearns. Before we let you go, I want to make sure we 
put in place some of the basics. I guess a potential lesson 
from what happened in Japan involves events or a combination of 
events that seem to go beyond the design basis for the 
facility. I guess the question would be, what measures do the 
United States facilities need to take to address the 
emergencies for events that surpass the design basis of the 
facility? And does the NRC require the industry to ensure 
assumptions about design basis and related emergency response 
are tested? How can we in Congress assess the quality of the 
work and what sort of planning is done to anticipate a 
confluence of events such as the power blackout and loss of 
road access? If you can, just answer those questions together 
and perhaps take me through what your thinking is.
    Mr. Virgilio. We do have severe-accident management 
strategies in place at all of these nuclear power plants that 
are in operation today. And again, these strategies look at the 
most improbable events that could possibly occur at the nuclear 
power plants and these are the strategies that we are using to 
help coach the Japanese in responding to the events in their 
country today.
    Mr. Stearns. Is there anything we in Congress that you 
would recommend this morning that we do perhaps in terms of 
planning or implementation? Is there anything that Congress 
should follow up with?
    Mr. Virgilio. There is nothing that we need immediately, 
but as we proceed through the 90-day assessment and the longer-
term assessment, we will certainly come back to you if we 
believe we need legislation to support any actions that we need 
to take.
    Mr. Stearns. All right. The gentlelady from Colorado is 
recognized.
    Ms. DeGette. Thank you so much, Mr. Chairman. Sometimes in 
Congress, we get into these kind of modes where it looks like 
all the Democrats are attacking nuclear power and all the 
Republicans are defending it, and I don't think that is what we 
are intending here. What we are intending is to make sure that 
the unintended and the emergency doesn't happen here like it 
happened in Japan. We saw this in the Gulf last year when 
everything that could have gone wrong with the Deepwater 
Horizon did, and so as a result we had the unthinkable happen. 
So that is why I just want to follow up on the questions that 
we are asking you because in Japan, you know, it is one of the 
most advanced technologies in the world and the most advanced 
economies, and in fact at this Fukushima Daiichi plant, they 
knew that they were in an earthquake zone and they designed the 
plant for the earthquake zone to the best of their technologies 
at that time, correct?
    Mr. Virgilio. That is our understanding, yes.
    Ms. DeGette. And so they designed it for the earthquake, 
and in fact it appears at this early stage that the plant 
survived the earthquake, correct?
    Mr. Virgilio. That is our understanding.
    Ms. DeGette. But then the next thing that happened was, the 
tsunami, correct?
    Mr. Virgilio. That is our understanding.
    Ms. DeGette. And they had designed the plant to withstand a 
tsunami. They had the seawalls, correct?
    Mr. Virgilio. The details around the design for the 
tsunami, I am not familiar with.
    Ms. DeGette. Right. But they thought they were designing 
it----
    Mr. Virgilio. Yes.
    Ms. DeGette [continuing]. To withstand a tsunami, right?
    Mr. Virgilio. Some level of----
    Ms. DeGette. But then the tsunami breached the seawall, 
right?
    Mr. Virgilio. Correct.
    Ms. DeGette. So this was an extraordinary circumstance that 
had not been predicted, right? And then the way that the plant 
was designed is, it got the electricity for the cooling off the 
grid, right?
    Mr. Virgilio. Normally, yes.
    Ms. DeGette. And then it had a backup of the diesel, right?
    Mr. Virgilio. Yes.
    Ms. DeGette. But then when the tsunami breached the 
seawall, then the diesel supply was cut off, as you said, 
correct, Mr. Virgilio?
    Mr. Virgilio. Yes, that is correct.
    Ms. DeGette. So then they had a battery backup after that 
but that only lasted 6 to 8 hours, correct?
    Mr. Virgilio. Our understanding, yes.
    Ms. DeGette. And then so what happened is, they were not 
able to reconnect any other power supply because of the 
devastation of the earthquake and so on, and that is what led 
to some of these problems, right?
    Mr. Virgilio. Now they are connecting the power supply.
    Ms. DeGette. Right. But it is weeks later now. So some of 
our plants in the United States have a similar backup type of 
design where they go off the grid, then there is a diesel 
backup and then there is a battery backup for that, correct?
    Mr. Virgilio. Yes.
    Ms. DeGette. And that includes the Peach Bottom plant that 
we were talking about earlier, right?
    Mr. Virgilio. Yes.
    Ms. DeGette. And so if those mechanisms all fail and you 
have to go to the battery backup at the U.S. plants, the 
question someone else was trying to ask you is, those batteries 
that are the third-tier backup are 4 to 8 hours, correct?
    Mr. Virgilio. Yes.
    Ms. DeGette. And so one of the things we need to look at, 
and I am sure the NRC is looking at in its analysis, especially 
with what happened in Japan is, can we get that third-tier 
battery backup, can we get batteries that will last longer in 
case there is some devastating rupturing of the electrical 
source so you can't get it hooked back up right?
    Mr. Virgilio. A specific line item in our lessons learned 
actions.
    Ms. DeGette. Is that----
    Mr. Virgilio. Look at station blackout, look at in light of 
Fukushima is a specific line item in our action plan.
    Ms. DeGette. And the NRC when it looks at plants in the 
United States, it doesn't just look at plants that might be 
impacted by, say, tsunamis, right?
    Mr. Virgilio. We look at all plants against a certain range 
of----
    Ms. DeGette. I mean, there are plants in the United States 
that could have different reasons for disruption of the 
electricity which would cause the cooling systems to fail, 
right?
    Mr. Virgilio. A specific line item in our plan to look at 
all natural phenomena.
    Ms. DeGette. And unnatural phenomena. The unspoken word the 
chairman and I are talking is terrorism. You could have some 
kind of devastating terrorist attack, God forbid, that knocked 
out the electricity and you couldn't get it reconnected and for 
some reason the diesel failed and then you are on the battery, 
right?
    Mr. Virgilio. Therein lies the rationale for why we 
required the B.5.b. equipment.
    Ms. DeGette. Right. And so one of the things that you are 
looking at in this SOARCA analysis is, does that B.5.b. 
equipment work, right?
    Mr. Virgilio. Yes.
    Ms. DeGette. And that is all we are asking is that we 
continue as we get more knowledge and information, we continue 
to think the unthinkable. That is what we are looking for here, 
and I think you would agree.
    Mr. Virgilio. That is our culture.
    Ms. DeGette. Thank you very much. I yield back.
    Mr. Stearns. I thank the gentlelady, and we are now going 
to call up the second panel, and thank you both for your time.
    Mr. Virgilio. Thank you, sir.
    Mr. Stearns. On the second panel, the first witness is Mr. 
William Levis. Mr. Levis is currently the President and Chief 
Operating Officer of PSEG Power. This company operates two 
nuclear generating stations and is part owner of another. Mr. 
Levis is testifying on behalf of the Nuclear Energy Institute, 
or NEI. The second witness is Dr. Edward Lyman. Dr. Lyman is 
Senior Staff Scientist at the at the Global Security Program at 
the Union of Concerned Scientists. And the third witness is Dr. 
Michael Corradini. He is Chair of the Nuclear Engineering and 
Engineering Physics Program at the University of Wisconsin in 
Madison. He is a member of the Department of Energy Nuclear 
Energy and NRC's Advisory Committee for Reactor Safeguards. He 
is testifying today on behalf of the American Nuclear Society.
    I say to all of you, your testimony that you are about to 
give is subject to Title 18, which is section 1001 of the 
United States Code. When holding an investigative hearing, this 
committee has the practice of taking testimony under oath. Do 
you have any objection to testifying under oath? I hear no.
    I advise you that under the rules of the House and the 
rules of the committee, you are entitled to be advised by 
counsel. Do you desire to be advised by counsel during your 
testimony today? If not, if you would please rise and raise 
your right hand I will swear you in.
    [Witnesses sworn.]
    Mr. Levis we will start with you with a 5-minute opening 
statement. Welcome.

  TESTIMONIES OF WILLIAM LEVIS, PRESIDENT AND CHIEF OPERATING 
 OFFICER, PSEG POWER LLC; EDWIN LYMAN, SENIOR STAFF SCIENTIST, 
 UNION OF CONCERNED SCIENTISTS; AND MICHAEL CORRADINI, CHAIR, 
ENERGY AND PHYSICS DEPARTMENT, UNIVERSITY OF WISCONSIN--MADISON

                   TESTIMONY OF WILLIAM LEVIS

    Mr. Levis. Chairman Stearns, Ranking Member DeGette, and 
members of the subcommittee, thank you for the opportunity to 
appear before you today. I appreciate your invitation to 
testify at today's hearing to discuss the status of the U.S. 
nuclear industry and the implications of the Fukushima nuclear 
accident on nuclear energy in the United States. I am 
testifying today on behalf of the Nuclear Energy Institute, the 
nuclear energy industry's Washington-based policy organization.
    My remarks today will cover four points. First, U.S. 
nuclear power plants are safe. Second, safety is the U.S. 
nuclear energy industry's top priority. Third, the U.S. nuclear 
energy industry has a long history of continuous learning from 
operational events. We will do the same as a result of the 
Fukushima accident. And fourth, the U.S. nuclear energy 
industry has already taken proactive steps to verify and 
validate or readiness to manage extreme events. We took these 
steps early without waiting for clarity on the sequence of 
failures at Fukushima.
    Regarding the first point, U.S. nuclear power plants are 
safe. They are designed and operated conservatively to manage 
the maximum credible challenges appropriate to each nuclear 
power plant site. U.S. nuclear power plants have also 
demonstrated their ability to maintain safety through extreme 
conditions including floods, hurricanes and other natural 
disasters. U.S. nuclear reactors are designed to withstand 
earthquakes, tsunami, hurricanes, floods, tornadoes and other 
natural events equal to the most significant historical event 
or maximum projected event plus an added margin for 
conservatism without any breach of safety systems. Recent 
experience with earthquakes in California, Hurricane Andrew in 
Florida and Katrina in New Orleans repeatedly demonstrate that 
U.S. nuclear plants can withstand severe natural events. In 
each case, safety systems functioned as designed, operators 
responded effectively and emergency training proved successful.
    Regarding the second point, safety is the U.S. nuclear 
industry's top priority and complacency about safety 
performance is not tolerated. We know we operate in an 
unforgiving environment where the penalties for mistakes are 
high and where credibility and public confidence once lost are 
difficult to recover. All of the safety-related metrics tracked 
by industry and the Nuclear Regulatory Commission demonstrate 
high levels of excellent. Worker radiation exposure, events 
with safety implications, lost-time accident rates have all 
trended down year over year for a number of years.
    Regarding the third point, the U.S. industry routinely 
incorporates lessons learned from operating experience into its 
reactor design and operations. I could point to many, many 
examples of improvements made to the United States nuclear 
power plants over the years in response to lessons learned from 
operational events. Let me just list a few.
    In the 1970s, concerns were raised about the ability of the 
boiling-water reactor Mark I containment to maintain its design 
during an event where steam is vented to the torus. 
Subsequently, every United States operator with a Mark I 
containment implemented modifications to dissipate energy 
released to the suppression pole and installed stringent 
supports to accommodate loads that could be generated.
    As a result of the Three Mile Island accident, NRC required 
all sites to have emergency plans including both an emergency 
operations facility and a joint information center. These 
offsite facilities were mandated to ensure the States and NRC 
could have direct access to information coming from the plant. 
In 1988, the NRC concluded additional station blackout 
regulatory requirements were justified and issued the station 
blackout rule to provide further assurance that a loss of both 
offsite and onsite emergency AC power systems would not 
adversely affect public health and safety.
    Since the terrorist events of September 11, 2001, U.S. 
nuclear plant operators identified other beyond design basis 
vulnerabilities. As a result, U.S. nuclear plant designs and 
operating practices since 9/11 are designed to mitigate severe 
accident scenarios such as aircraft impact, which includes the 
complete loss of offsite power and all onsite emergency power 
sources and loss of large areas of the plant. All U.S. nuclear 
power plants have enhanced capacity for fighting very large 
fires, alternatives for bringing cooling water to used fuel 
storage pools and the ability to bring in additional sources of 
power from remote locations. Also, all plants have ability to 
diesel-driven portable water pumps, for example, to bring 
cooling water to the reactor and fuel storage pool without 
offsite or onsite electric power.
    Regarding the final point, the U.S. nuclear energy industry 
has already started an assessment of the events in Japan and is 
taking steps to ensure that U.S. reactors could respond to 
events that may challenge safe operation of the facilities. 
These actions include verifying each plant's capability to 
manage the severe accident scenarios developed after 9/11 that 
I previously described, verifying each plant's capability to 
manage a total loss of offsite power, verifying the capability 
to mitigate flooding and the impact of floods on systems inside 
and outside of the plant, and performing walk-downs and 
inspection of important equipment needed to respond 
successfully to extreme events like fires and floods.
    In conclusion, Mr. Chairman, it will take some time before 
we understand the precise sequence of what happened at 
Fukushima, before we have a complete analysis of how the 
reactors performed, how equipment and fuel performed, how the 
operators performed. As learn from this tragic event, however, 
you may rest assured that we will internalize those lessons and 
incorporate them into our designs, training and operating 
procedures.
    That concludes my oral testimony, Mr. Chairman. I look 
forward to answering questions that the committee may have.
    [The prepared statement of Mr. Levis follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Stearns. I thank the gentleman, and Dr. Lyman, welcome 
for your 5-minute opening statement.

                    TESTIMONY OF EDWIN LYMAN

    Mr. Lyman. Good morning. On behalf of the Union for 
Concerned Scientists, I would like to thank Chairman Stearns, 
Ranking Member DeGette and the other members of the 
subcommittee for the opportunity to provide our views on the 
still-unfolding accident at Fukushima Daiichi and the 
implications for nuclear power in this country. UCS would like 
to extend its deeply sympathies to the people of Japan during 
this crisis.
    Before proceeding, I would like to say that the Union of 
Concerned Scientists is neither pro no anti nuclear power but 
we have served as a nuclear power safety and security watchdog 
for more than 40 years.
    Today, nearly 4 weeks after the catastrophic earthquake and 
subsequent tsunami, there is still much that is uncertain and 
it will be a long time before we learn all the lessons from the 
still-evolving accident. However, the severe and unacceptable 
consequences of this disaster for human health, the environment 
and the economy are already apparent, and everyone concerned 
should not hesitate to take steps to make sure that such a dire 
event will not happen in the United States.
    To that end, the Nuclear Regulatory Commission has 
announced that it will conduct both short- and longer-term 
reviews of its regulations and procedures, and we believe that 
the issues that the NRC is going to look at are the right 
issues. However, we are concerned that the NRC's review may not 
be sufficiently thorough without stringent oversight, and the 
defensive public posture that the NRC has taken since March 
11th raises concerns, in our view, that the agency does remain 
too complacent to conduct a critical self-examination of its 
past decisions and practices. The NRC has to confront the 
overarching question of whether it has allowed safety margins 
to decline to unacceptably low levels and it may have to adjust 
its perception in light of Fukushima.
    One issue we are concerned with is also the promptness of 
implementation of any lessons learned. Following the 9/11 
attacks, the NRC undertook what it called a top-to-bottom 
review of its security regulations. Although the review did 
uncover serious shortcomings in its requirements, the process 
of fixing them has been so slow that even today, nearly 10 
years after 9/11, some nuclear plants have not completed the 
required security upgrades. We need to act faster than that.
    Now, there are some lessons learned I think we can say with 
confidence we need to turn our attention to. One is whether it 
was an earthquake and a tsunami or any other event that could 
cause a loss of offsite power and onsite power called a station 
blackout. There needs to be a coping strategy that is longer 
than what the United States requires today. Whether it is 
battery backup or anything else, the coping strategy is not 
longer than 8 hours for any plant, and I think we have already 
seen the consequences of having a complete station blackout for 
a long period of time and the potential situation that can 
evolve.
    The second issue has to do with spent fuel pools. We 
believe that the evidence is already abundant that there will 
be a safety advantage and a security advantage to accelerating 
the transfer of spent fuel from overloaded wet pools into dry 
cask storage. That would reduce both the radioactive inventory 
and the heat load of the pools and also allow for more time to 
intervene should there be an interruption of cooling. So we do 
believe there is a significant safety advantage and there 
shouldn't by any more hesitation to accelerate that transfer.
    The third issue has to do with how do you cope with an 
event like we are see in Fukushima if there is already core 
damage. Now, the Japanese are engaging in truly heroic actions 
but they are barely managing to contain the situation. In fact, 
there already has been a large radiological release into the 
atmosphere and into the ocean. We need to do better than that. 
And so the issue comes up, are U.S. plants better prepared to 
cope once damage has occurred or once safety systems have been 
lost for a long period of time and cooling has been 
interrupted.
    And this is the issue that I wanted to bring out with the 
e-mails that have been referred to before that we received 
through FOIA. The issue is really that the NRC and the industry 
are taking credit for these measures. We have already heard it 
today as an example that we are better prepared to deal with 
the aftermath of the Japanese accident, but the fact is, many 
of these measures, they are not seismically qualified. There is 
no guarantee that they would work under these severe 
conditions. In fact, the memos indicate that there is concern 
among some NRC staff about whether credit should be taken for 
internal studies, so I question why credit should be taken for 
them when the NRC and the industry are out talking about the 
safety of plants today. They need to establish more secure and 
more reliable equipment and supplies and procedures for dealing 
with the aftermath of this event.
    Finally, with regard to emergency planning zones, we 
believe the expansion out to 50 miles was appropriate for U.S. 
citizens of Japan, and we do believe there needs to be a new 
examination of the requirements here at home. Simply saying 
that we can expand from 10 to 50 miles if we have to is not 
adequate because if you don't plan for that kind of an 
expansion, certainly in some areas of this country of densely 
populated areas, that expansion may be chaotic and ineffective. 
So you need planning for emergency planning.
    And with that, I would like to stop and I would be happy to 
take your questions. Thank you.
    [The prepared statement of Mr. Lyman follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Stearns. I thank the gentleman. Mr. Corradini, welcome, 
and we would appreciate your opening statement for 5 minutes.

                 TESTIMONY OF MICHAEL CORRADINI

    Mr. Corradini. Thank you, Chairman Stearns and Ranking 
Member DeGette and subcommittee members. I will try to be brief 
since I am the last.
    Currently, I am Chair of Nuclear Engineering and 
Engineering Physics at UW Madison. I also serve on the DOE's 
Nuclear Energy Advisory Committee and the NRC's Advisory 
Committee on Reactor Safeguards. I appear today on behalf of 
the American Nuclear Society, and the ANS is a professional 
society comprised of about 11,000 men and women who work in the 
nuclear industry, the medical community, our national labs, 
universities and government. On their behalf, I would like to 
express my deepest sympathies to the people of Japan for their 
loss and hardship. Also, I have been asked by the ANS to co-
chair with Dr. Dale Klein, former chairman of the Nuclear 
Regulatory Commission, a special commission on Fukushima 
Daiichi. This commission will bring together experts from the 
nuclear and health physics disciplines to examine the major 
technical aspects of the event.
    I would like to focus today on what we know so far based on 
news reports and reports from within Japan. Following the March 
11th earthquake, the reactors at Fukushima Daiichi, Daini, and 
Osonowa all shut down automatically as designed, and emergency 
power systems were successfully activated. This occurred even 
though the quake exceeded the reactor's design base. It was the 
tsunami which dealt a crippling blow to Fukushima Daiichi. The 
surge of water reportedly was over 40 feet high, overwhelmed 
the 17-foot seawalls, and by all indications wiped out the 
plant's offsite power supply as well as its backup generators, 
associated pumping, electrical and venting systems for units 1 
through 4.
    Battery power control and pumping systems operated until 
about midnight Friday. Then the plant slipped into a blackout 
condition. With no cooling available, the reactor cores heated 
up, damaged fuel rods and caused chemical reactions that 
resulted in a buildup of hydrogen inside the reactor vessels. 
Tokyo Electric Power Company, or TEPCO, was able to begin so-
called feed-and-bleed seawater injection by Saturday afternoon 
using portable generators and pumps. However, as steam was 
released from the reactors, so was hydrogen, which ultimately 
accumulated at the top of the reactor buildings exploded, 
causing severe damage to the structure outside the 
containments. The spent fuel pools experienced problems as 
well. For reasons that are not completely clear at this time, 
water levels dropped in the first few days, causing hydrogen 
generation and combustion, fuel rod cladding failures and 
releases of radioactivity to the environment. Subsequently, 
TEPCO used seawater, then freshwater to refill the pools.
    Clearly, this was a major accident. So what are the effects 
of the accident on the surrounding region? Immediately after 
problems at Fukushima were apparent, Japanese officials quickly 
evacuated people within the 12- and then eventually 20-
kilometer radius of the plant. In the first few days after the 
earthquake, the airborne radiation levels in the vicinity 
spiked repeatedly. However, by a week after the event they had 
fallen to levels a couple of times natural background, and in 
fact, readings outside the 60-kilometer radius of the plant are 
now close to normal.
    Clearly, the cleanup will be long and expensive. It is 
necessary to continue monitoring the effects of radioactive 
releases. We will have to be mindful of the migration of 
radionuclides into the food chain. Also, we hope that the plant 
personnel that are onsite dealing with and stabilizing the 
situation do not suffer excessive radiation exposure but none 
to date. However, at this time all indications that this event 
will not have significant public health consequences in Japan.
    So what are the relevant lessons for the U.S. plants? 
First, it is highly unlikely that a Fukushima event could 
happen in the United States. We have no operating plants on 
active subduction faults. Our plants are robustly designed to 
withstand seismic events, and each has a diverse and redundant 
array of safety systems. All have a strict regulator, the NRC. 
The U.S. nuclear industry has implemented a number of equipment 
upgrades post 9/11 including hardened vents to prevent hydrogen 
explosions and systems that allow for reactor cooling and 
blackout conditions. Finally, U.S. plants run regular drills 
simulating adverse conditions so they are better prepared to 
manage unforeseen events.
    The first main lesson which I believe extends to our 
civilian infrastructure, to our entire civilian infrastructure 
is that emergency preparedness for extreme natural disasters is 
critically important to preserve life, health and property. 
Secondly, we continually need to ask ourselves the hard what-if 
questions. We did this after the Three Mile Island accident 
which resulted in severe-accident management guidelines being 
used in U.S. plants today. We also need to reexamine our short- 
and long-term management of spent nuclear fuel. Lastly, we have 
to be prepared to recognize success within failure. I think the 
Fukushima situation is about as bad as it gets for light-water 
reactors. Yet if no major public health impacts emerge, I would 
argue this is a successful outcome given the enormous scope of 
the natural disaster.
    So with that, I will thank you and look forward to 
questions.
    [The prepared statement of Mr. Corradini follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Stearns. I thank you, and I will start with the 
questions.
    Mr. Levis, as I understand it, you have actually had 
experience operating a nuclear power plant. Is that correct?
    Mr. Levis. Yes, sir.
    Mr. Stearns. And was your title then the chief nuclear 
officer for the plant?
    Mr. Levis. That is correct.
    Mr. Stearns. Was this while you were in the military?
    Mr. Levis. No, this was my previous job with Public Service 
Enterprise Group was as chief nuclear officer responsible for 
the Salem and Hope Creek station.
    Mr. Stearns. OK. Dr. Lyman has indicated a little concern 
about preparedness of the United States. Based upon your 
experience actually operating a nuclear power plant, do you see 
what is happening in Japan ever happening here in the United 
States?
    Mr. Levis. The question of could it happen here, I like to 
start with saying we assume it can happen here but I have 
confidence that we can deal with it because we start saying it 
can and we work from there to make sure we have in fact built 
into our process a sufficient----
    Mr. Stearns. Do you think we have built into our 
procedures----
    Mr. Levis. Yes, sir, I do. I think we have built it into 
our design, built it into our operating practices and also our 
emergency plans.
    Mr. Stearns. So again, I would ask you the question, do you 
think what happened in Japan could likely happen in the United 
States based upon your experience?
    Mr. Levis. No, sir, I don't.
    Mr. Stearns. Dr. Corradini, you made a statement. You said 
no health consequences will occur in Japan because of the 
nuclear incident. Did I hear you correctly say that?
    Mr. Corradini. I said something like that.
    Mr. Stearns. So in your opinion, notwithstanding what had 
happened there, you feel confident no long-term health care 
problems will occur in Japan. And what do you base that on?
    Mr. Corradini. So I think in my written testimony, what I 
have had access to are essentially reports from NISA, the 
Nuclear and Industrial Safety Agency, and their releases of 
radiation monitoring, and from what is seen to date, I don't 
think there will be severe health consequences from the 
accident.
    Mr. Stearns. Mr. Levis talked a little bit about 
preparedness that Dr. Lyman talked about. Do you mind just 
maybe commenting upon what Dr. Lyman said in terms of U.S. 
preparedness?
    Mr. Corradini. He said a number of things. Which one would 
you like to me to comment on?
    Mr. Stearns. Well, you are welcome to comment on all of 
them. It is an open-ended question for you to answer.
    Mr. Corradini. I think I know Dr. Lyman from a number of 
times when we have spoken either together or between sessions, 
so I think some of the things that he says we have to take 
serious thought with. I think his comments about having to 
review what we have currently in plants is a logical thing to 
do. I don't particularly specifically agree with some of his 
conclusions. So I apologize for starting off like this, but as 
an engineer, I qualify everything, right, because we don't--the 
first thing you learn as an engineer is, you don't trust 
anybody else except yourself, and even that you double check. 
So I agree on many counts with what Dr. Lyman says in terms of 
we have to be concerned about. I don't necessarily come to the 
same conclusions about how I would act upon those concerns.
    Mr. Stearns. And what conclusions do you draw differently 
than Dr. Lyman?
    Mr. Corradini. I don't think necessarily--well, now I am 
getting into personal opinion so I am going to have to be 
careful.
    Mr. Stearns. Well, no, that is why you here. Dr. Lyman is 
giving his personal opinion too.
    Mr. Corradini. I am sure he has. I don't necessarily think 
I would come to the same conclusions about evacuation zone 
planning because I think we are early in the game of that. I 
just remind the committee that at TMI since I was the 
alternative events sequence scenario for the Presidential 
Commission for 3 weeks, I enjoyed my stay in Washington. Two 
days after TMI, we asked to move the evacuation zone from 10 
miles to 20 miles based on some hypothetical possibilities. So 
we can take actions as appropriate to protect health and safety 
of the public and the areas surrounding the plant but we have 
to be careful how we do it. I would say that if I were 
personally to think a plan forward, I would say I would like to 
risk-informed decisions relative to evacuation planning where I 
would actually look at--and I think Mr. Virgilio said this 
probably best where you are looking at essentially the 
possibility of events that can occur, the consequences of those 
events and try to decide and form some sort of risk context. So 
assuming for a size for an evacuation zone to me is a bit too 
early.
    Mr. Stearns. Mr. Levis, you heard the first panel, and Dr. 
Lyman mentioned the SOARCA analysis and the B.5.b. e-mails. Is 
there anything you would want to comment based upon what Dr. 
Lyman said about that or perhaps what the first panel talked 
about?
    Mr. Levis. Since the SOARCA is a draft report, I haven't 
had the benefit of seeing it since it hasn't been released, but 
what I can comment on is the B.5.b. items we talked about. I 
mentioned in my testimony we verified them. We know the work. 
We have trained our people to make them work and we have 
demonstrated the equipment will work, and if I could add there, 
this is not just one or two checklists we developed. For our 
particular station, this is over 100 procedures that we have 
put in place to basically address the what-if questions that we 
don't know and understand today. So I am very, very confident 
that we can implement these procedures and the equipment will 
work.
    Mr. Stearns. My time is expired. The gentlelady from 
Colorado is recognized for 5 minutes.
    Ms. DeGette. Thank you so much, Mr. Chairman.
    Mr. Levis, I think we are all happy to hear you say that it 
industry's view that what happened in Japan could not happen in 
the United States today, but I am going to assume that you 
don't mean that we can't take lessons from what happened in 
Japan and improve our situation in the United States even 
better, correct?
    Mr. Levis. That is correct.
    Mr. DeGette. And Dr. Corradini, you are nodding your head 
yes. You would also agree with that?
    Mr. Corradini. Every system that we build as individuals or 
groups can be improved, and so we learn from every event.
    Ms. DeGette. So that is all we are trying to figure out 
today is how can we take lessons from this and improve on that. 
The new equipment and the procedures for nuclear reactors that 
was ordered by the NRC after September 11, the B.5.b. 
mitigating systems that we have been talking about actually 
made a big difference in the draft results of the modeling that 
we have been talking about of the severe reactor accident 
scenarios at the Peach Bottom nuclear plant which as we have 
heard coincidentally has the same design as the Fukushima 
reactors in Japan. With the new post-9/11 equipment, the Peach 
Bottom reactor narrowly avoided core damage and a complete 
loss-of-power scenario and without that equipment core damage 
occurred in the simulation.
    And so Dr. Lyman, I want to ask you a couple of questions 
about the memo and the documents that the Union of Concerned 
Scientists released today about NRC's modeling and simulation 
as part of the SOARCA project. I believe that you testified you 
got these documents through a Freedom of Information Act 
request, right?
    Mr. Lyman. That is correct.
    Ms. DeGette. So you are releasing two internal NRC e-mails 
that indicate that there were disagreements about NRC analysts 
as to whether the new equipment and procedures, the B.5.b. 
measures would really work, right?
    Mr. Lyman. That is correct.
    Ms. DeGette. And Mr. Chairman, I ask unanimous consent to 
put those e-mails into the record now that they have been 
released.
    Mr. Stearns. No objection. So ordered.
    Ms. DeGette. Thank you.
    Mr. Stearns. By unanimous consent, so ordered.
    [The information appears at the conclusion of the hearing.]
    Ms. DeGette. Now, on July 28, 2010, an NRC staff e-mail 
summarized the concerns of the NRC senior reactor analysts, or 
SRAs, who work in NRC's regional office as follows: ``One 
concern has been SOARCA credits certain B.5.b. mitigating 
strategies such as RCIC operation without DC power that have 
really not been reviewed to ensure that they will work to 
mitigate severe accidents. Generally, we have not even seen 
licensees credit these strategies in their own PRAs, or 
probabilistic risk assessments, but for some reason the NRC 
decided we should during SOARCA.''
    Dr. Lyman, briefly, what is the significance of this e-
mail?
    Mr. Lyman. The significance of this e-mail is that in the 
context of the actions which certain NRC wanted to credit in 
the event of a severe accident like occurred at Fukushima where 
you have a complete loss of power, which is called a station 
blackout, and then eventual loss of battery power. The question 
is, there is one system that you might be able to rely on to 
continue providing cooling even in the most severe 
circumstances, and there are presumably some techniques or 
equipment that would enable you to do that, but the problem is, 
well, first of all from our perspective, we don't know what 
those actually are because those plans are not publicly 
available. But what the e-mail does say is that some staff have 
looked at them and question whether they can be credited, 
whether you can actually say with confidence you would be able 
to do that and continue to keep the core cool, even in the 
severe circumstance.
    Ms. DeGette. So it sounds like the NRC analysts were 
arguing that maybe this mitigation measure is unproven and 
shouldn't be relied on in the modeling. Is that what you are 
saying?
    Mr. Lyman. That is correct.
    Ms. DeGette. The second NRC e-mail refers to mitigation 
measures required by NRC's March 2009 reactor security 
regulation. This one says, ``The concern involves the manner in 
which the credit is given to these measures such that success 
is assumed,'' and the e-mail continues, ``Mitigation measures 
are just equipment on site that can be useful in an emergency 
when used by knowledgeable operators if post-event conditions 
allow. If little is known about these post-event conditions, 
then assuming success is speculative.'' And so what it shows is 
the NRC reactor analysts responsible for the day-to-day safety 
were challenging the SOARCA assumption that the presence of new 
equipment could be equated with the successful use of the 
equipment. Do you think that is a reasonable concern?
    Mr. Lyman. Yes, I do. It makes no sense to credit a piece 
of equipment that is not seismically qualified with use after a 
severe earthquake. You simply can't guarantee that piece of 
equipment will be available. So I think it is clear that 
without the highest standards, you can't certify that equipment 
will be there if you need it.
    Ms. DeGette. Just one last question, Mr. Chairman.
    Mr. Levis, do you think this is something that would be 
worthwhile following up on and investigating in attempts to 
make sure that we ensure the safety of our system?
    Mr. Levis. I think any questions we have relative to safety 
should be followed up on and answered.
    Ms. DeGette. Thank you.
    Mr. Stearns. I thank the gentlelady. The gentleman from 
California, Mr. Bilbray, is recognized for 5 minutes.
    Mr. Bilbray. Yes, Mr. Levis, I have a question about that, 
because there seems to be a concern that this backup seems, 
which seems a logical effect that if you have got steam, steam 
is a problem, you have got the ability to generate, basically 
run pumps off of this stuff that maybe is a problem or maybe an 
opportunity. The question might have been during a major 
earthquake there may be a problem there. But we are talking 
about the inundation issue being the real problem in Japan 
where steam application seems to be one technology that is 
pretty impervious to inundation when it gets to operation. So 
isn't there sort of a mixing here of a concern that may apply 
in one application but in the application that we are talking 
about here is where the electricity is knocked out, pumps are 
knocked out by a tidal wave, the steam operation, though, maybe 
susceptible to one would still be operational with a tsunami.
    Mr. Levis. I think Mr. Virgilio explained that fairly well 
this morning. It wasn't the event that got you there but the 
consequence and the consequence may be a loss of total power 
off site and on site and whether water caused or didn't cause 
it, but having the mechanisms to deal with that loss of offsite 
power is what was reviewed, and every licensee demonstrate that 
they have ability to do that.
    Mr. Bilbray. So basically the interesting thing here is 
that you have got the one technology that might be susceptible 
to water but the other one won't be. Even if the assumption was 
this one may be susceptible to earthquake, the other system is 
less susceptible to earthquake. So having a variable backup 
system rather than being damned seems like we should be 
embracing. But let me move on to this.
    Somebody spent a little time on disaster preparedness. Does 
anybody know if the Japanese in this area had a reverse 911 for 
their emergency evacuation system?
    Mr. Levis. I am not aware, but what I do understand is they 
took early and timely action to evacuate citizens within the 
area.
    Mr. Bilbray. OK. Well, I just want to point out that in San 
Diego, we use our nuclear warning system during the major fires 
in California to evacuate people, that in the United States we 
have the capability of calling directly into the home and 
calling each home and telling them they are in an area that 
needs to be moved or they are in area that may have to be moved 
in 15 minutes. We have got that capability, and as far as I 
know, I don't see the rest of the world has come up to that, 
and that is one of those things that we are way ahead that we 
don't even talk about, but for those of us that are involved in 
disaster preparedness, I think it is a really important factor 
we need to address.
    I have a question for you, Doctor, about the public safety 
issue because I may have a nuclear power plant up north but I 
have got three of them within a half of mile of San Diego, down 
San Diego, and I have got one that--and some of them that are 
within 100 yards of residences in Coronado and we probably have 
totally about 20 nuclear reactors right in that urban core. How 
does this equate to the safety of our military facilities that 
I have in San Diego where I have got reactors, six of them, 
within a half a mile of downtown San Diego? Is there something 
we can learn in those reactors that are really close to our 
civilian population?
    Mr. Lyman. Well, that is an interesting point, and the 
safety of naval reactors is something that most civilians don't 
really know too much about because most details are highly 
classified so I can only speculate, but I would say that I 
think there is a general concern when you have a nuclear 
reactor close to a large urban population that there is a 
potential for something to go wrong and a radiological release 
and so I believe that probably emergency preparedness should 
also deal with those questions as well. However, I think there 
are differences between the way the military regulates its 
nuclear power plants and the way the Nuclear Regulatory 
Commission does. The fact is, you have an industry that in some 
cases, let us say it doesn't always operate with military 
precision. So my concerns about the civilian nuclear power 
industry are perhaps even greater than about naval power 
plants.
    Mr. Bilbray. I appreciate that. I know the safety record of 
the military application seems very good. I can't say the same 
thing for aviation. I have had constituents killed by planes 
falling out of the sky. In fact, we have had a lot of that over 
the years. But one technology seems to have not had that 
problem, and we ought to keep an eye on it.
    Mr. Chairman, I think that we need to talk about the fact 
quickly the hydrogen problem in Japan, they had a structure 
built over their containment structure that contained the 
hydrogen, and I guess I would go to Mr. Levis. The reactors we 
have in California do not have that kind of structure so there 
could not be the containment of the gas that caused the 
explosion. Is that a fair assumption?
    Mr. Levis. The reactors in California are pressurized water 
reactors.
    Mr. Bilbray. No, I am not talking about that. I am talking 
about just the gassing. I will point out, maybe you brought it 
up, the gassing off caused the hydrogen to be moved out, and 
because they have a structure, a metal structure over the top 
of their containment structure, it confined that enough to 
where it could--do you want to elaborate quickly on that one?
    Mr. Levis. No, you said it just fine.
    Mr. Bilbray. And basically it couldn't happen in San 
Onofre, it couldn't happen at Diablo, OK, because we don't 
allow that kind of structure in California.
    Thank you very much. I yield back, Mr. Chairman.
    Mr. Stearns. The gentleman yields back, and the gentleman 
from Virginia, Mr. Griffith, is recognized for 5 minutes.
    Mr. Griffith. Thank you, Mr. Chairman.
    Mr. Levis, if I could start with you, Dr. Lyman has raised 
some concerns about the seismic capabilities or whether or not 
the equipment should be relied upon if it has not been tested 
in the right conditions. Can you just tell me what the 
failsafes are on the plants in the United States? Do you feel 
comfortable that we are safe?
    Mr. Levis. I feel comfortable that we are safe for a number 
of reasons. First, the equipment that we are describing is 
designed to withstand the worst natural event that can occur at 
that site including seismic events. So those systems with 
built-in redundancies are able to survive the worst earthquake 
and ensure that the plant shuts down and remains shut down. In 
the event that, the what-if scenarios that we are talking about 
here today, there are additional pieces of equipment that can 
be brought to bear to help the plant shut down and keep it shut 
down, and I am confident that that equipment works in the 
conditions they need to.
    Mr. Griffith. Can you elaborate a little bit more? I mean, 
maybe I say safety at nuclear plants for dummies is what I 
need. But unlike my colleague, who has got plants all around 
him, we rely mainly on coal, and can you go into a little more 
detail on what safety features are there?
    Mr. Levis. I could just talk a little bit about the plants 
that we have. We have a boiling-water reactor, the Hope Creek 
Station. We have four emergency diesel generators to provide 
emergency AC power that can power a number of different safety 
systems that can inject water into the reactor and keep the 
reactor cool and other systems that can remove heat from the 
containment. Each one of those systems is required to have a 
backup or redundant system with separate power supplies and 
separate rooms and structures so we have two of everything to 
start with from a design standpoint, each of which are designed 
to withstand the worst earthquake, flood, hurricane or whatever 
event of concern there is at the particular station. In 
addition to that, we have operators trained on how to operate 
those systems, our licensed operators going through simulators 
that replicate the actual reactor cores that we have so they 
see real time what it is they would face, indications they 
would have and how they would respond to it, and those 
procedures have been upgraded so it made it easier for them so 
they can respond to symptoms and not events. They don't have to 
figure out if a hurricane came, they just have to figure out 
what they have to do to get water to the reactor or what they 
have to do to cool the containment. We have made it easier for 
even the instrumentation in the control room that can help them 
look at those various parameters and we make sure those 
instruments are qualified for the conditions that they will see 
during these events.
    So, this training is continual. Folks go through it all the 
time and we are always asking ourselves the what-if questions 
so we can continue to learn lessons from that and events around 
the world, and we will in this case also.
    Mr. Griffith. Dr. Corradini, do you concur?
    Mr. Corradini. Yes.
    Mr. Griffith. Is there anything you would like to add?
    Mr. Corradini. No. I think that Mr. Levis has run a plant. 
I have been in plants. I have worked at a plant but I haven't 
run a plant so I would say his experience trumps mine by orders 
of magnitude.
    Mr. Griffith. Mr. Chairman, I yield back.
    Mr. Stearns. The gentleman yields back. Dr. Gingrey is 
recognized for 5 minutes. Oh, OK, I am sorry. Mr. Markey from 
Massachusetts came back. Mr. Markey, you are recognized for 5 
minutes.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    In the United States, we have a 10-mile emergency planning 
zone around each nuclear power plant, and it is only within 
this zone that there are plans and emergency drills for 
evacuation, sheltering in place and stockpiling of potassium 
iodide, which can eliminate thyroid cancers caused by 
radioactive iodine. Yet in Japan, the NRC has recommended a 50-
mile evacuation zone for residents of the United States. Cesium 
has been found at levels that triggered relocation after 
Chernobyl 25 miles away. So the NRC has provided potassium 
iodide to its staff in Japan. The U.S. Embassy is making it 
available to U.S. personnel as far away as Tokyo, and the U.S. 
government is stockpiling it outside the 50-mile evacuation 
zone.
    Mr. Lyman, the NRC has obviously concluded that a 10-mile 
emergency planning zone isn't large enough to deal with the 
Japanese meltdown. Do you think the emergency zone in the 
United States is large enough at 10 miles?
    Mr. Lyman. No, Congressman Markey, I do not. I believe that 
U.S. plants are vulnerable to the type of event we have seen at 
Fukushima and that event has demonstrated there could be 
significant radiological exposures far beyond 10 miles.
    Mr. Markey. After Chernobyl everyone--and I was the chair 
of the committee, the Energy Subcommittee that had a hearing 
right after Chernobyl, and everyone said, well, you know, that 
is a bad design at Chernobyl and a repressive political regime 
and it couldn't happen here. That was that hearing. At this 
hearing, however, it is more difficult because Japan is our 
technological equal. We import all of our electronic equipment 
from Japan that we buy on a daily basis. So it is obvious that 
we can learn a lot of lessons if we are willing to from Japan 
and be a little more modest about mankind's ability to control 
nature, to control unpredicted events technologically.
    Let me move on. In terms of the spent fuel, which has been 
one of the main sources of radiation at the Japanese nuclear 
reactors, in 2008, Chairman Jaczko said that he believed that 
``the most clear-cut example of an area where additional safety 
margins can be gained involves additional efforts to move spent 
nuclear fuel from pools to dry cask storage.'' Dr. Lyman, do 
you agree that the changes of a spent fuel fire and radiation 
release would be lower if spent fuel was moved out of the giant 
swimming pools and into dry cask storage as soon as possible?
    Mr. Lyman. Yes, I do believe that you would get a lower 
risk if you removed some of the fuel from the pools, reducing 
the density and reducing the heat load and also improving the 
potential for circulation.
    Mr. Markey. So some people might say that the likelihood of 
anything bad happening is so small that there really isn't any 
difference between having them in the swimming pools or moving 
them into dry casks. What would you say to that?
    Mr. Lyman. Well, I would say what happened in Fukushima 
shows us that we do not really understand the fundamental 
likelihood of a variety of accidents. It is apparent that there 
is already a challenge to one of the spent fuel pools that was 
probably not predicted. It surprised a lot of people. And so I 
would say there is going to have to be a reevaluation of what 
we do know and what we don't know.
    Mr. Markey. So a terrorist might be able to attack one of 
these swimming pools outside a nuclear power plant?
    Mr. Lyman. Yes, there is always a concern that a terrorist 
attack on the spent fuel pool could cause what is called a 
rapid drain-down which would lead to an overheating of the pool 
in a relatively short period of time.
    Mr. Markey. And again, these swimming pools are not inside 
a containment dome in the United States. They are outside of 
the containment dome. Is that correct?
    Mr. Lyman. That is right. They are not contained within the 
primary containment and the structure. They are contained 
around the reactor building. It is not designed to be leak-
tight or pressure resistant.
    Mr. Markey. And we learned from documents captured from al 
Qaeda that nuclear power plants are at the very top of the 
terrorist target list of al Qaeda in the United States. Is that 
correct?
    Mr. Lyman. I am not familiar with the intelligence but the 
Nuclear Regulatory Commission has said that there is an ongoing 
threat to U.S. nuclear power plants.
    Mr. Markey. Thank you. The meltdown in Japan was caused by 
an electricity outage that was itself triggered by the 
earthquake and tsunami but most nuclear reactors here are only 
required to have 7 days' worth of diesel fuel for their 
emergency generators and only 4 to 8 hours' worth of battery 
capacity in the event of their diesel generators failing. In 
Japan, the reactors had 8 hours' worth of battery generation 
capacity. Don't you agree that the NRC's regulations should be 
changed to require more diesel fuel and greater battery 
capacity in order to give emergency responders more time to be 
able to figure out the physics and the electronics of the mess 
that they could be confronted with because of some natural 
disaster?
    Mr. Lyman. Yes, I do agree that there needs to be a 
reexamination of the assumptions about the ability to rescue a 
plant in the event of a significant natural disaster or 
terrorist attack that could have damage to the surrounding 
infrastructure. I think the assumptions for a coping capability 
at plants are based on overly optimistic assumptions about the 
arrival of the cavalry.
    Mr. Markey. I thank you, and I thank you, Mr. Chairman.
    Mr. Stearns. The gentleman's time is expired. The gentleman 
from Georgia, Mr. Gingrey, is recognized for 5 minutes.
    Dr. Gingrey. Mr. Chairman, thank you for recognizing me. 
And just in a follow-up to what the gentleman from 
Massachusetts was just saying in regard to the concern over the 
pools containing the spent fuel, there, in fact, he is right, 
144 million pounds of spent fuel above ground at these 103 
reactor sites across the country just sitting there waiting to 
be transported to Yucca Mountain in dry storage, I don't know 
how many hundreds of meters below the surface in that abandoned 
salt mine like of course they do in Scandinavia and yet I never 
heard the gentleman from Massachusetts express any outrage when 
President Obama a year and a half or so ago defunded any 
ability to transport that dangerous, as he described it, spent 
fuel in those swimming pools to Yucca Mountain. It is kind of 
interesting.
    Let me let our witnesses, Mr. Levis and Dr. Corradini, 
answer a couple of quick questions. At this point it appears 
that loss of power and backup power was a key factor to the 
loss of control of the cooling in the Japan incident. Would you 
agree with that, the two of you?
    Mr. Levis. Yes.
    Dr. Gingrey. And they are shaking their heads yes. What 
safeguards in the United States can you point to that suggest 
our facilities would be prepared for a disaster that knocks out 
two forms of power, the diesels and the electric grid?
    Mr. Levis. If I could start first with the design of where 
the diesels in particular, they are in seismic rugged 
structures and designed to be also flood-proof so if you look 
at the elevations and the height, water would be prevented from 
getting in there and the diesels themselves would be qualified 
for the seismic events, so safety-related, very rugged 
structures to begin with.
    Dr. Gingrey. Dr. Corradini?
    Mr. Corradini. No, I agree with you. I agree with Mr. 
Levis. I was just going to comment on that the whole premise of 
the way nuclear power plants are designed and operated in the 
United States is defense and depth that you have multiple 
independent barriers for protecting and keeping radioactive 
materials where they should be.
    Dr. Gingrey. And in fact, at least the two nuclear plants 
that are being licensed and in the process of being constructed 
now, at Plant Vogtle in Waynesboro, Georgia, in my State by the 
Southern Company, their ability to cool is not dependent, is 
it, on electric grid? They have sort of a gravity situation 
which would protect them from this kind of a catastrophe?
    Mr. Levis. That is correct.
    Dr. Gingrey. Is that correct?
    Mr. Corradini. Yes, sir.
    Dr. Gingrey. Thank you. Dr. Lyman expressed concern that 
there is not sufficient backup battery requirements at 
facilities, that 90 percent of the United States reactors only 
have four-hour capability. I would like for both of you to 
respond to that concern.
    Mr. Levis. The 4-hour requirement actually came into 
regulations in 1988. I have one of those 4-hour plants, and I 
can tell you what it is we have done since that period of time 
is, our procedures that I have talked about that we have to 
cope with this event, the first thing we do is, we strip the 
battery of its load so that 4 hours becomes 8 hours. And in 
addition to that, if it looks like the battery life has become 
depleted, I have backup emergency generators on the site that I 
can power the battery chargers and do that indefinitely until 
such time as I can get AC power restored to the point.
    Dr. Gingrey. Dr. Corradini, are you confident at present 
that the United States facilities have sufficient redundancies 
to provide that backup power after some such disaster?
    Mr. Corradini. Yes, sir.
    Dr. Gingrey. Mr. Levis, what about beyond design basis 
failures? What does your company and industry do to ensure that 
it has the ability to respond, let us say, to a 9/11?
    Mr. Levis. The particulars of 9/11, we had to demonstrate 
that we could respond to a large area of fire, loss of large 
areas of the plant and be able to keep cooling to the fuel 
pools, and we were able to demonstrate that through a wide 
range of scenarios that we had the capability, training and 
wherewithal to do just that.
    Dr. Gingrey. And let me go back to Dr. Corradini. Dr. 
Corradini, you are the engineer. You are the nuclear physicist.
    Mr. Corradini. No, no, he is an engineer too.
    Dr. Gingrey. You both are. All right. But anyway, what are 
some of the general engineering considerations for developing a 
design basis for earthquakes and these used fuel pools that Mr. 
Markey was talking about?
    Mr. Corradini. Well, as I know from others, not from my own 
expertise, fuel pools are seismically qualified in the United 
States as Mr. Levis was talking about, and the number of other 
alternative abilities of the pool to be kept cool during any 
sort of event, but I thought your question was a bit broader, 
which was that the plant as a whole has a design, what is 
called a safe shutdown earthquake such that all systems can 
essentially bring the plant to a cold shutdown condition and 
keep it cool and stable even in the event of the worst-case 
earthquake with margin. I think Mr. Virgilio explained that in 
much better detail than I did earlier in questioning.
    Dr. Gingrey. Doctor, you are right. That is the question 
that I should have asked, and I really appreciate the answer. 
My time is expired and I will yield back.
    Mr. Stearns. All right. I thank the gentleman.
    We have a rare opportunity. Generally the votes are going 
to be later so we still have an opportunity. If you bear with 
us, I will take a second round here and I will start with my 
questions for 5 minutes.
    I just want to establish this quickly. Dr. Levis, you are 
on the executive board of the Institute for Nuclear Power 
Operations. Isn't that correct?
    Mr. Levis. Board of directors, sir, yes.
    Mr. Stearns. And simply, what role does the INPO play in 
response to events such as what happened in Japan, just 
briefly?
    Mr. Levis. In particular, we started a series of conference 
calls the day after the event to mobilize, to understand what 
had happened and determine what actions we needed to take as an 
industry, and so the four actions that I described in my 
testimony about verifying our ability to respond to these 
series of beyond design basis events essentially were 
spearheaded by the INPO organization and that is who we are 
reporting the completion of those to in the next 2 weeks.
    Mr. Stearns. That is impressive. Is it possible that you 
can operate more quickly than the NRC?
    Mr. Levis. Well, safety is our business, and NRC provides 
an independent function but we recognize that importance and we 
take whatever actions are necessary in a time period to do it 
to make sure those plants are safe.
    Mr. Stearns. Mr. Levis, in your testimony you reference a 
flooding experience during Hurricane Katrina at the Waterford 
nuclear plant. You state that the plant lost all offsite power 
and maintained safe shutdown on emergency diesel generators for 
3-1/2 days until grid power was restored. Obviously, the Japan 
plants have been without power for more than 2 weeks now. Are 
our plants prepared to go without power for that long?
    Mr. Levis. The plants could operate for that period of time 
on emergency diesel generators. The only issue would be is 
refueling the fuel tanks that would be on site and the ability 
to get fuel to those.
    Mr. Stearns. OK. Dr. Corradini, what is the Probabilistic 
Risk Assessment in lay terms and how does that apply to you as 
commercial reactor safety?
    Mr. Corradini. Well, let me start by trying to avoid 
answering your question by saying you should bring Commissioner 
Apostolakis on since he was one of the early originators of the 
process and knows it quite well. But from my understanding, it 
is simply answering three questions, which is what can go 
wrong, what is the likelihood of something going wrong and what 
are the consequences of it, and in fact, you can think of it 
exactly in that way when we talk about it for a number of 
events. The SOARCA questions that had come up earlier in some 
sense was strictly the third, what are the consequences. There 
was no discussion of the ways in which things can go wrong nor 
the likelihood. Does that help?
    Mr. Stearns. A little bit.
    Mr. Corradini. Feel free to ask more.
    Mr. Stearns. How is it used to plan for extreme and beyond 
design basis events and is it an approach widely used by other 
nations?
    Mr. Corradini. It is used now, and I will make sure Mr. 
Levis corrects me if I get it incorrectly relative to the NRC. 
It is one of the requirements of an ongoing look on how we do 
maintenance procedures, on how we look at any sort of changes 
in the plant's state, how we actually then keep an ongoing, 
what is called an ongoing PRA on what the plant's state is so 
that you can understand if something would occur, and we go 
beyond the design base what the likelihood of what we do. In 
fact, the final thing I think was mentioned by Mr. Levis and 
also by Mr. Virgilio. The Severe Accident Management Guidelines 
in some sense are informed by the PRA process so that we know 
what we could do given some sort of symptom. If something 
occurs, if we see a symptom, we then would respond in some way 
to essentially alleviate the problem or to make sure we keep 
the reactor cool. So that is an example of what we use it for.
    Mr. Stearns. Mr. Levis, anything you want to add to that?
    Mr. Levis. The only thing I could add is our plants were 
designed to--that is, those single failure proof could prevent 
safety function from occurring. Since that period of time, PRAs 
were put in place to look at essentially another lens looking 
at the situation, and we determined there were improvements 
that could be made because of the PRA, we have in fact put 
those in place at our stations to improve our margins of 
safety.
    Mr. Stearns. Just for the neophytes, what is the PRA?
    Mr. Levis. Oh, the Probabilistic Risk Assessment. That is 
the process I just described.
    Mr. Stearns. Oh, that is the acronym. OK.
    I think my questions are accommodated. The gentlelady from 
Colorado is recognized.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    Mr. Levis, I was intrigued by what you said about the 
third-tier backup that you had at your plant, which is the 
batteries, and you said, I believe, that they are rechargeable 
batteries. Is that right?
    Mr. Levis. We have the capability to charge them, yes.
    Ms. DeGette. And is this a battery that to your knowledge 
is available as a third-level backup in all of the nuclear 
power plants in the United States?
    Mr. Levis. There are battery chargers that keep batteries 
at all plants. The power we would provide would be to the 
battery charger so we can keep them charged.
    Ms. DeGette. So what would happen to those batteries then 
if--I mean, we are assuming a worst-case scenario obviously. 
What would happen to those batteries? I mean, all those 
batteries, the technology is, they stay charged 4 to 8 hours as 
understand it. Is that right?
    Mr. Levis. Without a charger.
    Ms. DeGette. So what would happen then if the--this is what 
I am concerned with. What would happen if the electricity were 
cut off to the battery charger?
    Mr. Levis. The alternates--if the electricity were cut off 
to the charger, then the battery lifetime would be dependent 
whether it is a 4-hour or 8-hour battery.
    Ms. DeGette. Right.
    Mr. Levis. However, if you hook up an emergency power 
source to the battery charger, you can keep that battery 
charging indefinitely.
    Ms. DeGette. Right. But then you can hook it up to the 
cooling system too. I mean, you know, if you had a diesel 
system, then that could cool it too, right?
    Mr. Levis. I am not sure I understand the question.
    Ms. DeGette. OK. Dr. Lyman, you know, this is one of the 
concerns that your organization expresses, that these backup 
batteries had only a 4- to 8-hour life, and in the SOARCA 
project that has not yet been released, the Peach Bottom plant 
came within 1 hour of complete failure because the batteries 
were only 4 to 8 hours. What is the solution of that?
    Mr. Lyman. Well, the solution has to be a reevaluation of 
the requirements for making sure that if you get to such a 
severe station, a station blackout and run out of battery 
capacity, that there are more robust measures for coping with 
that and so there are a variety of things that can be done. 
Certainly if you had robust--I am not sure, but the power 
requirements for recharging a battery are probably not the same 
that you would need to restore the cooling system so I would 
have to double-check on that.
    Ms. DeGette. OK.
    Mr. Lyman. But the requirements for that, which should be 
safety related and seismically qualified and be able to protect 
against all these other events. I think the core of our concern 
is that you don't take credit for things that you can't 
guarantee will actually be there, and what I hear is they are 
trying to--the industry is trying to have both sides of the 
coin. They want to take credit for these things but they are 
not willing to reinforce them, to harden them against a variety 
of events that they need to protect against.
    Ms. DeGette. OK. So I just wanted to ask, we have all been 
talking about the March 2009 security requirements that were 
put into place, and everybody was supposed to upgrade to that. 
Do you know, have all the nuclear power plants in the United 
States gone into full compliance with that?
    Mr. Lyman. To my knowledge, no, they haven't.
    Ms. DeGette. And how many of them have not?
    Mr. Lyman. I am not sure. I counted four that I saw had 
gotten extensions so that they still wouldn't be in compliance 
today but I am not sure that is the extent.
    Ms. DeGette. And the requirements were focused on security 
threats rather than natural disasters, right?
    Mr. Lyman. That is correct.
    Ms. DeGette. Now, how confident do you think we can be that 
the new equipment required by the NRC after 9/11 would remain 
operational after a major earthquake or flood?
    Mr. Lyman. Well, unfortunately, we don't have access to the 
actual plans where that equipment and the specifications are 
detailed because that is security-related information, but from 
public comments that have been made, there are indications that 
they don't require seismic qualification, for example. So of 
course, to the extent that they don't meet the most rigorous 
standards, we can't have confidence that they could survive 
severe events.
    Ms. DeGette. Thank you very much. I want to thank the whole 
panel for coming and also the previous panel. These are serious 
questions, and as I say, what I want to make sure and I think 
all of us do is that we use this Japan example as a way to make 
sure that we are making our nuclear energy as safety as we 
possibly can. I yield back.
    Mr. Stearns. The gentlelady yields back. You had a few more 
seconds. Maybe Mr. Corradini and Mr. Levis might want to just 
comment on what Dr. Lyman said.
    Mr. Bilbray. Now that they are all gone.
    Mr. Stearns. Mr. Bilbray, you are recognized for 5 minutes. 
You might ask these other two just to comment on that because I 
think that is important too.
    Mr. Bilbray. I think we have got it. First of all, for the 
record, we have 8 hours' reserve battery in San Diego in our 
reactors.
    Mr. Levis, I have a question for you that the gentlelady 
from Colorado brought up this issue. Our battery backup, is it 
a lead acid, is it glass mat technology or are you using gel 
for the batteries? Do you know the technology being used?
    Mr. Levis. Generally, lead acid.
    Mr. Bilbray. Lead acid. So the fact is, is when the 
generators come on to run the pumps they would put in cycle for 
recharging at the same time so basically developing another 
backup.
    I would like to ask all three of the witnesses, President 
Obama's Secretary of Energy, somebody who is very well 
respected on both sides of the aisle, made a very clear 
statement to those of us in California that even though the 
Japanese plant was designed for what we would equate as a 7.0 
was hit by a 9.0 and still survived it, that our units are 
designed for what is perceived as the maximum at 7.0, and I 
would just like to ask, do you agree with the Secretary of 
Energy that the design parameters show that we can survive an 
event that would occur between every 7,000 to 10,000 years? 
Would you agree with the Secretary on that issue?
    Mr. Levis. I am not familiar with the 7,000 to 10,000. What 
I am familiar with is the Japanese plant experienced horizontal 
ground motion of .52 G's. The plants in California are designed 
well above that number, both the San Onofre and Diablo Canyon 
Station. If I remember the numbers correctly, it is .67 and .75 
G's, so a significant margin above what the plant in Japan 
actually experienced.
    Mr. Bilbray. Doctor, do you think the Secretary is right by 
basically saying----
    Mr. Lyman. I can't comment on that because I think the jury 
is still out, first of all, on whether the plant was within 
the--whether Fukushima was within the design basis and survived 
it or not. There were a number of systems that were disabled.
    Mr. Bilbray. OK. My question is really on the event. The 
Secretary is saying that we have designed to an event that will 
happen every 7,000 to 10,000 years. Do you agree with that 
event perspective by the Secretary of Energy?
    Mr. Lyman. I would have to reserve on that. I am not 
familiar with that. But there is also an issue whether 
equipment is survivable or whether it can actually be used and 
whether the operators are there to use it, and my understanding 
is, only survivability is considered----
    Mr. Bilbray. So your point is that even though the events 
may happen only every 7,000 to 10,000 years, the fact is, the 
claim of survivability you don't believe?
    Mr. Lyman. Well, if the equipment is qualified to be 
survivable, that doesn't mean that someone is going to be able 
to actually use it, and you also have to consider the whole 
range of particularities which aren't considered.
    Mr. Bilbray. Well, I understand that, and I guess the proof 
in the pudding is the fact that when you have a facility that 
is not designed to take a 9.0 and does take a 9.0, and we would 
never have a 9.0. All geologists say that California will never 
be hit, our reactors won't be exposed to it, Alaska maybe and 
the others, and the Secretary I guess kind of reinforced that. 
Your comment about the Secretary's statement about our 
engineering to a 7,000 to 10,000 years----
    Mr. Corradini. I am going to see to it just for the group 
as a whole, when people use the Richter scale, it is kind of a 
very fuzzy----
    Mr. Bilbray. Right.
    Mr. Corradini. And I think what Mr. Levis talked about I 
think is a very precise way of saying it, what the ground 
acceleration was and what the ground acceleration we were 
designed to at Diablo Canyon and San Onofre. So I do agree.
    Mr. Bilbray. And the biggest issue is the geologist's 
predictions of when those events would happen and the 
probability, he gave 7 to 10, and I just thought that that was 
very telling of exactly what we were shooting for here.
    I would like to go back to the fact where we go from here. 
I would like to give you a chance to be able to articulate one 
thing. We are doing all these studies. In fact, I probably 
should go to the engineer. The ground motion stability and the 
survivability on this stuff, is this all being done just by 
engineering projections? Is there any modeling?
    Mr. Corradini. No, no, no, no, no. Let me back up and say--
because I got cornered on a couple of radio discussions about 
this. All that we are talking about relative to analysis is 
tested based on analysis compared to testing. In fact, some of 
the best testing is done in some of the universities out on the 
West Coast where the concerns are high. So most of this is done 
with empirical testing.
    Mr. Bilbray. OK, because that is how we do our earthquake 
survival for structures or whatever. It was interesting that 
even if you found the problem, Mr. Chairman, it was interesting 
that the way you would reinforce a concrete structure if you 
found it was deficient would be to reinforce it by lining it 
with carbon finger and epoxy composites which as the nuclear 
physicists will tell you is a great heat sink for dispersing 
the heat caused by the fuel itself. So actually even if you 
come in deficient, how you would repair it would actually make 
the system more efficient than just having the traditionally 
designed system. So I yield back, Mr. Chairman.
    Mr. Stearns. I thank the gentleman. I thank you for that 
point. The gentleman from Massachusetts is recognized for a 
second round for 5 minutes.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    Again, it is important to remember that this committee 
selected Yucca Mountain and that it was not high on the list of 
the National Academy of Sciences. We eliminated New Hampshire 
because John Sununu wasn't interested in having it in granite. 
We eliminated Mississippi because Trent Lott didn't want it 
there and Bennett Johnson didn't want it in Louisiana in the 
salt domes, just so we are humble with regard to the problem 
with Yucca. We selected it along with our Senate counterparts. 
I voted no. I didn't think that we should be selecting and I 
thought that the National Academy of Sciences and others should 
be followed in their recommendations. So the inherent problems 
that obviously exist in Yucca are naturally flowing from the 
fact that politicians selected something that scientists should 
have done, and the same way, by the way, that this afternoon 
the House Floor a bill came out of this committee, is going to 
be on the House Floor telling the Environmental Protection 
Agency to ignore the science of global warming and not to do 
anything about that problem.
    Again, this is a committee that is--you know, we are 
political experts but that is an oxymoron like jumbo shrimp or 
Salt Lake City nightlife, but nonetheless, it does not stop the 
committee from continuing to delve into making scientific 
decisions that then have long-term ramifications, and Yucca 
Mountain is one of them. If people want to be moving nuclear 
fuel there, then they should have allowed the scientists to 
have made the decision.
    Moreover, as we know, the nuclear fuel, even if Yucca was 
open, would be oversubscribed right now. We would need a second 
nuclear repository. Right now it is already oversubscribed. It 
can't accept it because there are many geological unanswered 
questions at Yucca. You really don't want to be building it 
that near an earthquake fault probably if you could go and do 
it all over again. But the reality is that the spent fuel is so 
hot that it has to be kept on site right next to the reactor 
anyway for 5 years while it cools down. It is not even ready to 
get moved. So we have to make sure that it is secure next the 
plant for at least 5 years because it needs to be cooled down 
before it can get moved anyway. So we just have to be realistic 
about the problem. Yucca Mountain would be oversubscribed and 
the remaining fuel would have to sit there for at least 5 years 
anyway because of the inherent danger of the heat that is in 
that spent fuel.
    So Dr. Lyman, when you look at this General Electric design 
here in the United States, do you think it is important for the 
Nuclear Regulatory Commission to go back and to reexamine the 
assumptions that they have made about the safety devices, 
procedures inside of those plants?
    Mr. Lyman. With regard to the Mark I in particular?
    Mr. Markey. Yes, the Mark I.
    Mr. Lyman. Yes, there are certain issues that we think 
would bear a closer look. One issue that has been known for a 
long time is that the Mark I has a particular vulnerability to 
containment failure, which is called vessel melt-through, and 
this would not be remedied by the hardened vents and the other 
hydrogen mitigation measures that you heard about. And there 
are a number of different containment types in the United 
States that also have similar vulnerabilities. So we think 
fundamentally there has to be a great emphasis on prevention at 
this point and looking at where safety margins have been 
reduced unnecessarily or too closely for a whole range of 
different designs.
    Mr. Markey. Now, last year there was an earthquake in Chile 
and then later last year there was an earthquake over in New 
Zealand, which everyone remembers, and then an earthquake in 
Fukushima up in Japan, and the fourth part of that quadrant is 
over here in the United States, Alaska, Oregon, maybe down to 
California. Who knows? We should be a little bit humble about 
pretending to understand the totality of the geology of the 
planet.
    The Japanese, of course, we would assume would be those 
that were most concerned about earthquakes since that is part 
of their culture, and yet they weren't prepared for a 9.0. And 
it turns out that in the year 865, there was a 9.0 in that part 
but they weren't of course preparing for something that 
happened in 865. You can, I guess, assume that a nuclear power 
plant won't be there long enough, you know, that you can kind 
of take the risk. That is part of a calculated risk.
    But the humility I think that we should bring to this 
subject right now is to basically assume that something bad 
could happen and begin to prepare for it. Chile, New Zealand, 
Japan, the United States. We don't know. We don't want it to 
happen but our job is to make sure that we have the proper 
safeguards and preparations in place in the event that the 
worst does occur. Thank you, Mr. Chairman.
    Mr. Stearns. I thank the gentleman from Massachusetts and I 
thank our witnesses for staying with us, and we are ready to 
close.
    I ask unanimous consent that the contents of the document 
binder be introduced into the record and to authorize staff to 
make any appropriate redactions. Without objection, the 
documents will be entered into the record with any redactions 
that staff determines are appropriate.
    [The information appears at the conclusion of the hearing.]
    I want to thank the witnesses again for the testimony, and 
members of this committee for participating. The committee 
rules provide that members have 10 days to submit additional 
questions for the record to the witnesses.
    And with that, the subcommittee is adjourned.
    [Whereupon, at 12:20 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
